<html>
<title> - NOMINATIONS OF THELMA DRAKE, JEFFREY NADANER, AND SETH APPLETON</title>
<body><pre>[Senate Hearing 115-216]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-216


    NOMINATIONS OF THELMA DRAKE, JEFFREY NADANER, AND SETH APPLETON

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                            NOMINATIONS OF:

 Thelma Drake, of Virginia, to be Administrator of the Federal Transit 
                             Administration

                               __________

Jeffrey Nadaner, of Maryland, to be Assistant Secretary of Commerce for 
                           Export Enforcement

                               __________

 Seth Appleton, of Missouri, to be Assistant Secretary of Housing and 
         Urban Development for Policy Development and Research

                               __________

                             APRIL 17, 2018

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


                Available at: http: //www.govinfo.gov /               
                                
                             __________
                                         

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-962 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Elad Roisman, Chief Counsel

                          Matt Jones, Counsel

                 Elisha Tuku, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

           Beth Cooper, Democratic Professional Staff Member

               Colin McGinnis, Democratic Policy Director

          Homer Carlisle, Democratic Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                     James Guiliano, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        TUESDAY, APRIL 17, 2018

                                                                   Page

Opening statement of Chairman Crapo..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2

                                NOMINEES

Thelma Drake, of Virginia, to be Administrator of the Federal 
  Transit
  Administration.................................................     4
    Prepared statement...........................................    23
    Biographical sketch of nominee...............................    24
    Responses to written questions of:
        Chairman Crapo...........................................    56
        Senator Brown............................................    57
        Senator Heller...........................................    61
        Senator Menendez.........................................    61
        Senator Cortez Masto.....................................    63
        Senator Jones............................................    65
Jeffrey Nadaner, of Maryland, to be Assistant Secretary of 
  Commerce for Export Enforcement................................     4
    Prepared statement...........................................    36
    Biographical sketch of nominee...............................    37
    Responses to written questions of:
        Senator Brown............................................    66
        Senator Toomey...........................................    68
        Senator Sasse............................................    68
        Senator Menendez.........................................    70
        Senator Cortez Masto.....................................    71
Seth Appleton, of Missouri, to be Assistant Secretary of Housing 
  and Urban Development for Policy Development and Research......     6
    Prepared statement...........................................    47
    Biographical sketch of nominee...............................    49
    Responses to written questions of:
        Senator Brown............................................    72
        Senator Menendez.........................................    74
        Senator Cortez Masto.....................................    76
        Senator Jones............................................    81

              Additional Material Supplied for the Record

Documents submitted in support of the nomination of Seth Appleton    82

                                 (iii)

 
    NOMINATIONS OF THELMA DRAKE, JEFFREY NADANER, AND SETH APPLETON

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. Good morning. This hearing will come to 
order.
    This morning, we will consider the nominations of three 
more individuals to serve in key leadership posts in the 
Administration.
    Welcome to all of you, and congratulations on your 
nominations to these very important offices.
    I see friends and family behind you today, and I welcome 
them here as well.
    The nominees before us are Thelma Drake, to be 
Administrator of the Federal Transit Administration; Jeffrey or 
``Jeb'' Nadaner to be Assistant Secretary of Commerce for 
Export Enforcement; and Seth Appleton to be Assistant Secretary 
of Housing and Urban Development for Policy Development and 
Research.
    Each of these nominees will play an important role in 
shaping national policy and advancing economic opportunity for 
millions of Americans, and each nominee brings unique 
experience and expertise to the table.
    Ms. Drake has dedicated a significant amount of her career 
to infrastructure, including public transportation. In addition 
to her role at the city of Norfolk's Public Works Department, 
she previously served as the Director of the Virginia 
Department of Rail and Public Transportation, overseeing public 
transportation priorities.
    During her time in the U.S. House of Representatives, Ms. 
Drake served on the Transportation and Infrastructure 
Committee. Her previous infrastructure experience provides her 
with an understanding of the role that transit plays in 
comprehensive transportation networks.
    Mr. Nadaner has spent more than two decades focused on U.S. 
national security, industrial technology, and Federal legal 
compliance.
    In the private sector, Mr. Nadaner held multiple leadership 
positions at Lockheed Martin and several small businesses, 
including Lockheed's Vice President of Engineering and 
Technology and Director of Business Development and Strategy.
    Mr. Nadaner also served in numerous positions at executive 
agencies, including Deputy Assistant Secretary of Defense for 
Stability and Operations Partnership Strategy, multiple senior 
positions at the State Department, and as an attorney at the 
Department of Justice. He is well equipped to lead Export 
Enforcement for the Bureau of Industry and Security.
    Mr. Appleton has spent most of his career on Capitol Hill, 
where he has developed expertise in housing policy and 
financial services issues. As a chief of staff to 
Representative Blaine Luetkemeyer for nearly a decade, Mr. 
Appleton played a key role in the bipartisan housing reform 
called the Housing Opportunity Through Modernization Act, or 
``HOTMA'', which passed in 2016.
    Mr. Appleton's nomination has been met with bipartisan 
support from Senators McCaskill and Blunt and the entire 
Missouri congressional delegation, which speaks to his strong 
track record of working across the aisle to get things done.
    Once again, congratulations to all of you on your 
nominations to these very important offices, and thank you for 
your willingness to serve.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman, for holding today's 
hearing on the nominations of Thelma Drake and Jeffrey Nadaner 
and Seth Appleton. Welcome to all three of you. I look forward 
to hearing your views. I want to welcome your family and guests 
to the Committee. So thank you for your willingness to serve.
    Ms. Drake comes to us with a very important qualification. 
She was born and raised in Elyria, Ohio, only about 5 miles 
from where I lived for a decade, before moving to Virginia, 
raising a family, entering public service. I am pleased she 
wants to bring her experience and her Ohio upbringing--her 
experience in Congress and her Ohio upbringing and her 
Virginia's Department of Rail and Public Transportation service 
to the Federal Transit Administration.
    Ohioans take more than 325,000 trips on public 
transportation every weekday. We need a strong Federal partner 
to help transit riders enjoy a faster and safer ride to work 
and school.
    I am hopeful we can move faster in your appointment than 
this Senate, this Committee, and the U.S. Senate moved on your 
predecessor's 2014 appointment, Therese McMillan. I think she 
was qualified. I think you are qualified. I am hopeful we can 
actually put partisanship aside, unlike what happened a few 
years ago. I am also hopeful we can do what we should, as Mr. 
Nadaner's appointment reminds me on the Export-Import Bank.
    The Administration's record on transit is disappointing. 
Ms. Drake and I had a discussion about that. I think she wants 
to do the right thing. I am hopeful the Administration allows 
her to.
    Its past two budgets have proposed eliminating FTA's 
Capital Investment Grants programs and the multimodal TIGER 
program. In the latest round of TIGER awards, DOT nearly 
eliminated transit projects from the program.
    The President's infrastructure proposal was also a 
disappointment. It contains no stable funding for the Mass 
Transit Account. We cannot rebuild our transportation 
infrastructure by passing the costs onto cities and counties 
through Trump tolls and through local tax hikes.
    Despite these disappointments, I want to work with the 
Administration and Republicans in the Senate to advance a real 
infrastructure program and an infrastructure package with real 
dollars. I look forward to hearing Ms. Drake's priorities, 
including with respect to safety oversight.
    I want to welcome Mr. Nadaner, the nominee for Commerce 
Assistant Secretary for Export Control Enforcement. Given 
increasing efforts by Russia, China, and others to steal 
sensitive technologies from U.S. companies, enforcement of our 
export control regime, as you know, is critical.
    That is especially true as the Committee moves forward to 
reform CFIUS, which must be integrated with our export control 
system.
    I would like to welcome Mr. Appleton to the Committee. If 
confirmed, he will help guide HUD's research efforts, which 
provide data and evaluations to policymakers and researchers 
and practitioners and housing market participants and the 
public.
    We face many housing challenges as a Nation, from our deep 
shortage of affordable housing to our ongoing work to realize 
the promise of the Fair Housing Act after 50 years. I hope you 
are committed to the Fair Housing Act. I am not sure that your 
bosses working up the chain are.
    Unbiased research can help us overcome these challenges and 
inform HUD's daily operations, best practices in the field, and 
evidence-based policy.
    I look forward to hearing from Mr. Appleton about his 
approach to this critical function at Housing and Urban 
Development.
    Thank you.
    Chairman Crapo. Thank you, Senator Brown.
    Will the nominees please rise and raise your right hands. 
Do you swear or affirm that the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Ms. Drake. I do.
    Mr. Nadaner. I do.
    Mr. Appleton. I do.
    Chairman Crapo. And do you agree to appear and testify 
before any duly constituted committee of the Senate?
    Ms. Drake. I do.
    Mr. Nadaner. I do.
    Mr. Appleton. I do.
    Chairman Crapo. Thank you. You may be seated.
    Each of your written statements will be made a part of the 
record in their entirety, and as I am sure you have been 
advised, we ask you to keep your oral comments or verbal 
comments to 5 minutes, so we have time for questions from the 
Committee. Before you begin, I invite you, if you choose to, to 
introduce your family that is in attendance, and, Ms. Drake, we 
will start with you. You may proceed.

STATEMENT OF THELMA DRAKE, OF VIRGINIA, TO BE ADMINISTRATOR OF 
               THE FEDERAL TRANSIT ADMINISTRATION

    Ms. Drake. Thank you, Mr. Chairman.
    I would like to introduce my husband to you, Ted Drake from 
Norfolk, Virginia. Thank you.
    Chairman Crapo. You may proceed with your statement.
    Ms. Drake. Thank you, Mr. Chairman.
    Chairman Crapo, Ranking Member Brown, and distinguished 
Members of the Committee, thank you for the opportunity to 
address you today and to answer your questions.
    I am honored to be nominated to the position of 
Administrator of the Federal Transit Administration. I would 
like to thank President Trump and Secretary Chao for their 
support and their belief in me.
    I view transit as a key component of a successful 
transportation network. I realize that needs vary across the 
country, and I look forward to engaging in the various 
discussions with stakeholders as to how construct, maintain, 
and operate successful systems.
    In Congress, I served on the House Transportation and 
Infrastructure Committee, and while serving in the Virginia 
General Assembly, I was a member of the House Transportation 
Committee. I have also served as a member of the Virginia 
Commonwealth Transportation Board.
    After leaving Congress, I served as Director of the 
Virginia Department of Rail and Public Transportation. While 
Director, I helped implement new processes and performance 
metrics that enhanced accountability and incentivized 
performance and efficiency for State transit systems.
    We also created a new model for funding capital investments 
that placed an emphasis on rolling stock. My work included 
involvement with Virginia's transit systems; the Washington 
Metropolitan Area Transit Authority; and Virginia's commuter 
rail system, the Virginia Railway Express.
    Secretary Chao and I share the same priorities for 
transportation. If confirmed, my top priorities will be the 
safety of our transit systems and the traveling public, 
infrastructure support and investment, and preparing for the 
future through innovation.
    Again, thank you for your time and consideration of my 
nomination. I would be honored to work with each of you on your 
priorities and to be an advocate for transit nationwide.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Mr. Nadaner.

  STATEMENT OF JEFFREY NADANER, OF MARYLAND, TO BE ASSISTANT 
          SECRETARY OF COMMERCE FOR EXPORT ENFORCEMENT

    Mr. Nadaner. I would like to introduce my dad, who is in 
his 85th, came from New York, and my wife and my three kids.
    Chairman Crapo. Welcome to all of you.
    Mr. Nadaner. Thank you, sir.
    Mr. Chairman, Ranking Member Senator Brown, Senators of 
this Committee, with reverence for our Constitution, I come 
before this Committee to be considered for Assistant Secretary 
of Commerce for Export Enforcement. I express my appreciation 
to Secretary Ross and President Trump.
    I am the child of World War II refugees. My parents brought 
me up with a gratitude for our Nation's incomparable freedoms 
and exceptional opportunities for economic dignity. They also 
raised me with an appreciation for the ordinary women and men 
who day in and day out, with little note but much sacrifice, 
ensure our safety and uphold our laws.
    The Assistant Secretary of Commerce for Export Enforcement 
and the Bureau of Industry and Security work to ensure that our 
adversaries do not get sensitive technologies. Effective 
harnessing of the Department's capabilities is indispensable to 
preventing the diversion of dual-purpose technologies to our 
enemies who may threaten our military, our homeland, and our 
citizens.
    Enforcement of the law is a sine-qua-non for protecting our 
Nation's security and the U.S. industrial defense base and its 
intricate supply chains. Robust enforcement is central to 
ensuring that congressionally mandated sanctions and anti-
boycott laws have effect.
    If confirmed, I will bring to bear more than two decades of 
experience in national security, industry, and Federal law from 
the vantage points of both the public and private sectors.
    My current duties with the U.S. Marine Corps center on 
U.S.-foreign technology competitions, cyber and informational 
threats, and military and security operations.
    Earlier at Lockheed Martin and in small businesses, I 
concentrated on aerospace and defense technology; mergers, 
acquisitions, and joint ventures; and U.S. procurements and 
exports. I have managed hardware and software R&D portfolios 
and worked on improving supply chains.
    Integral to my undertakings, I was operating under the 
Commerce- and State Department-led export control systems and 
anti-boycott and anti-corruption laws.
    Before that, while Deputy Assistant Secretary of Defense, I 
oversaw exports of U.S. military equipment and services across 
the globe. These transfer too involved compliance with the U.S. 
export control systems. In that role, I had the honor of 
working with both sides of the aisle in the Senate and the 
House to produce bipartisan legislation.
    Teaming with the civil service, I developed policies, 
advanced interagency decisions, and joined efforts with the 
intelligence community. I developed rich experience negotiating 
with foreign countries on technology uses.
    Among my highest privileges has been to serve as the U.S. 
Department of Justice trial attorney. I represented an array of 
Federal agencies in litigation arising out of their law 
enforcement, administrative, and regulatory activities. I 
understand the frameworks under which our officers and agents 
act. I have seen crimes' effects. I have conducted 
investigations and enforced subpoenas, and I have filed suits, 
negotiated settlements, and brought cases to judgment.
    If confirmed, I will enforce U.S. export controls, 
sanctions, embargos, and anti-boycott laws. I will advance 
policies that safeguard American jobs, technologies, and 
industries that form our industrial base.
    Mr. Chairman, Senator Brown, Senators of this Committee, I 
will be honored to answer any questions you may have. Please 
accept my appreciation for your consideration.
    Chairman Crapo. Thank you.
    Mr. Appleton.

   STATEMENT OF SETH APPLETON, OF MISSOURI, TO BE ASSISTANT 
     SECRETARY OF HOUSING AND URBAN DEVELOPMENT FOR POLICY 
                    DEVELOPMENT AND RESEARCH

    Mr. Appleton. Thank you.
    Chairman Crapo, Ranking Member Brown, and distinguished 
Members of this Committee, thank you for convening this 
hearing. It is an honor to appear before you as the nominee to 
be Assistant Secretary of Housing and Urban Development for 
Policy Development and Research.
    As a former staffer in the House of Representatives, I have 
sat along the wall behind the dais but never at the witness 
table, and to be sure, it is a humbling experience, as I have a 
great deal of respect for this institution and its important 
role in confirming nominees for service in the executive 
branch.
    Before I begin, I would like to recognize my family. My 
wife, Brooke, is here today. In typical Capitol Hill fashion, 
we actually met working as colleagues in the House before we 
got married.
    My mother, Susan, and my father, Bob, are here today from 
St. Louis. My mom has been a law professor for the last 43 
years and from a very young age taught me the value of 
research.
    My brother, Jesse, is here from St. Louis also, and on 
Brooke's side of the family are my in-laws, Barb and Tim Shupe 
from Stanberry, Missouri.
    Watching the broadcast at home in St. Louis are my sister-
in-law, Ali, my nephew, Bennett, who was supposed to be here 
for his first congressional hearing but got sick, and my 
grandmother, Winifred Frelich, who just celebrated her 93rd 
birthday on Friday and reminded me that she brought me to the 
Senate for the very first time during a spring break nearly 30 
years ago.
    In addition to my family, I would like to thank Senators 
Blunt and McCaskill as well as the entire Missouri 
congressional delegation for supporting my nomination, 
Republicans and Democrats alike.
    Chairman Crapo. It looks like you got a lot of folks here 
or watching, and the pressure is on.
    Mr. Appleton. It is, indeed, sir.
    [Laughter.]
    Mr. Appleton. HUD's Office of Policy Development and 
Research plays a critical role for the entire Department, 
coordinating recommendations on policy matters, overseeing 
research projects and demonstrations, disseminating economic 
information, and managing international programs and 
philanthropic initiatives. It is on the cutting edge of 
identifying new trends and finding innovative solutions to the 
housing and community development challenges of our day.
    As such, the Assistant Secretary must be familiar with the 
public policy development process, understand the importance of 
sound research in formulating evidence-based policy solutions, 
and provide effective leadership, management, and budget 
oversight to the PD&R team.
    If confirmed, I am committed to serving as a partner to 
this Committee and the Congress, which has long been involved 
in shaping PD&R's research and policy work.
    I believe I am well suited to serve in this position based 
on my public policy and management experience. Following my 
graduation from Stanford, I worked in the U.S. House for 13 
years, first as a legislative staffer, then as a chief of 
staff. As a legislative staffer, my portfolio included housing 
policy, and I later had the opportunity to really focus in on 
this as chief of staff to Congressman Luetkemeyer in his role 
as Chairman of the Subcommittee on Housing and Insurance.
    An example of the policies we worked on is H.R. 3700, the 
Housing Opportunity Through Modernization Act, or HOTMA, which 
passed both the House and Senate unanimously and was signed 
into law by President Obama in 2016.
    In addition to focusing on policy matters, I gained 
valuable management experience in the course of building, 
organizing, and leading a team of staffers in Missouri and 
Washington. I worked to ensure our entire team was involved in 
a collaborative process to craft sound initiatives, which 
included everything from generating ideas to reviewing research 
to developing partnerships and building coalitions. All of this 
was done with one underlying objective in mind: to improve the 
lives of the people we served.
    In July 2017, I left my position in the House to join HUD 
as General Deputy Assistant Secretary and Acting Assistant 
Secretary in the Office of Congressional and Intergovernmental 
Relations. Besides affording me the opportunity to work with 
many Senators and staff in this room, this role also allowed me 
to interact with all of the Department's program and support 
offices, across silos, including PD&R.
    Prior to being nominated, I worked with PD&R's staff on a 
variety of issues, including grants, university partnerships, 
technical assistance, and disaster response.
    PD&R has an outstanding team of dedicated civil servants. 
If confirmed, I very much look forward to working with that 
team, advocating for its work, and ensuring that its products 
meet Congress' intent and are utilized for the betterment of 
those served by HUD.
    Our policy solutions should be evidenced-based, backed by 
sound data, and tested by well-designed demonstrations and 
thorough research.
    In closing, I believe my housing policy and management 
experience in the legislative and executive branches has 
prepared me well to serve as Assistant Secretary. If confirmed, 
I look forward to working with this Committee to advance 
policies that address the priorities and needs of the American 
people.
    I would be pleased to answer your questions and honored to 
earn your support. Thank you.
    Chairman Crapo. Thank you, Mr. Appleton.
    Let me start out with questions with you, Ms. Drake. A key 
priority of this Administration is to reduce regulatory 
burdens, and in the area of transit, often what we see is the 
smallest and most rural transit agencies are burdened the most 
by regulations that are meant for the larger urban systems.
    Can you assure the Committee that you will provide careful 
consideration for the effects of regulations on small and rural 
transit agencies?
    Ms. Drake. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Committee, as Director of 
the Department of Rail and Public Transportation, I worked with 
Virginia's 44 transit systems, 20 of which were rural and 6 
were small urban. I have visited them. I have toured their 
operation. I have seen how hard they work. I have been at their 
ribbon-cuttings. I have talked to their riders, and I share 
your concern about our rurals. They cover very large areas, 
often are very economically challenged, smaller populations, 
and I can certainly confirm to you that if--if confirmed, I can 
commit to you that I will treat all projects fairly and in 
compliance with the law. And I appreciate your concern for the 
rurals as well as I saw in Virginia.
    Chairman Crapo. Well, thank you for that assurance.
    Mr. Nadaner, as you know, we are intensely working right 
now on the CFIUS legislation, and as I have learned more and 
more as we get into this process, export control is one of the 
key aspects of assuring the security of the United States and 
sensitive products.
    As you look to your new role, what do you see as the main 
challenges to export control enforcement?
    Mr. Nadaner. Mr. Chairman, I believe it is important that 
the Committee is considering CFIUS. It has been a while, and 
the world has changed a bit since the last time it did.
    But I would say one of the strengths for the American 
system has been a very strong CFIUS process for inbound 
investment and strong export controls for export technology, 
which can occur without the technology leaving the United 
States if it touches foreign hands.
    I believe Secretary Ross has made it a goal to say that as 
much as we have done on export enforcement, we need to do more. 
We need to make violations of these laws which can harm 
Americans and cause loss of American jobs mean something.
    Yesterday, we saw with ZTE, there is more that can be done.
    So, if confirmed, my goal will be to look at resources, 
authorities, and responsibilities and try and make the right 
priorities so that we have meaningful enforcement.
    Chairman Crapo. Well, thank you. This is obviously a matter 
of making sure we draw the lines in the right ways and in the 
right places, to assure that the robust development of emerging 
technologies takes place in the United States and to assure 
that we do not allow our technologies that are sensitive to be 
either exported or developed and taken over in the United 
States through incoming investments.
    I appreciate your attention to that.
    Mr. Appleton, as you know, HUD's Office of Policy 
Development and Research plays a key role in disaster relief 
efforts, including collecting information about affected areas, 
assessing the damage, and making disaster recovery tools 
available to the general public.
    In light of the research natural disasters in 2017, can you 
speak to any opportunities for PD&R to become more efficient or 
to coordinate better with sister agencies to ensure that the 
Government is able to rapidly respond to that type of crisis?
    Mr. Appleton. Thank you for that question, Senator. This is 
a very important topic.
    In the aftermath of a disaster, PD&R relies upon data from 
FEMA and the Small Business Administration to determine the 
extent of unmet housing, business, and infrastructure needs in 
the most impacted areas.
    This partnership is strong and runs well, but it could 
always be improved, and one thing that I would like to get over 
the finish line is the completion of a data transfer tool that 
would allow this information to come over seamlessly, 
expeditiously, and accurately in order to deploy assistance in 
a more rapid manner.
    Chairman Crapo. Thank you very much.
    I thank each of you for those answers.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Ms. Drake, since 1982, when President Reagan signed the law 
that created the mass transit account, Congress has allocated a 
minimum of 20 percent of new revenue deposited in the Highway 
Trust Fund for public transportation. I fought to maintain that 
principle in the FAST Act. We talked about that privately.
    I would like you to answer the question: Can we count on 
you as FTA Administrator to fight for at least that 20 percent 
of fair share of funding for transit in reauthorization or in 
any infrastructure project?
    Ms. Drake. Senator, thank you.
    As you know, I was not at FTA, not part of the discussions 
as to the funding that you are referencing.
    I can commit to you that I will be very engaged in the 
discussions, will be in communication with you, and look 
forward to implementing the funding according to the law.
    Senator Brown. Can you not commit to the 20 percent that 
has been in bipartisan since the Reagan years?
    Ms. Drake. Senator, I cannot do that at this time. I would 
need more information, more review, more discussion about it, 
and of course, discussions with you.
    Senator Brown. Well, I appreciate that and your 
straightforwardness, but the information is we have done it for 
30 years, and it has worked. And only recently have there been 
some efforts by some, including on this Committee, to drop that 
number below 20, but I am hopeful that you will, through this 
process--I mean, I want to vote for you, but I very much want 
that 20 percent. I want to hear the FTA Administrator say, 
``Yes, we will follow the tradition of 20 percent.''
    Ms. Drake. Well, Senator, at the risk of sounding 
redundant, I really need to have more information, more review, 
and more discussions with you.
    Senator Brown. OK, OK.
    Ms. Drake. And thank you. And I do hope that you realize 
that I truly am a transit advocate.
    Senator Brown. OK, OK. I believe you are.
    DOT gave out just two transit awards in the last round of 
TIGER funding, shutting out nearly every transit application. 
Should transit projects have a fair chance at TIGER funding?
    Ms. Drake. Senator, again, not having been at FTA, I am not 
part of those discussions and certainly cannot explain any of 
those do you, but I can tell you, again, I intend to be an 
advocate for transit. And I will be part of those discussions 
in the future.
    Senator Brown. OK.
    Mr. Appleton, for several years, HUD's discretionary 
research priorities have been driven by the Research Roundup. 
HUD developed this plan in consultation with stakeholders to 
identify research questions that are most important to housing 
and community development in the future. Do you intend to use 
the Research Roundup as a guide for research projects?
    Mr. Appleton. Absolutely. Right now, we are in the middle 
of the 2014 to 2018 research roadmap. This covers a 5-year 
period, and it covers--the priorities outlined are housing 
affordability, health, disaster resiliency, a number of really 
important things that I want to continue.
    As we build the next one, once the 2018 roadmap ends, I 
will absolutely be consulting with Congress and stakeholders, 
academics, practitioners, to build that roadmap going forward.
    Senator Brown. OK. Thank you for that.
    And you, I assume, will be getting the input from 
stakeholders as we do this?
    Mr. Appleton. Absolutely.
    Senator Brown. Thank you.
    For years--I am back to Ms. Drake. For years, this 
Committee has had a strong bipartisan commitment to safety 
oversight, maybe less today with the rhetoric that surrounds 
our Government the last few years, especially the Chairman's 
question to you about regulatory burden.
    Regulatory burden to some are safety rules to others and 
consumer protections and food safety, and some will call that 
regulatory burden. Others will call it public safety.
    I have two questions for you on safety. Will you be 
proactive in using your authority to improve safety standards 
in the transit industry and to ensure that states are providing 
robust oversight of real transit systems?
    Ms. Drake. Senator, safety is my top priority, as is 
Secretary Chao's.
    When I first began as Director of Department of Rail and 
Public Transportation, it was only a few months after the very 
tragic Fort Totten accident. I worked very closely with 
Maryland with D.C. and, of course, with the Governor of 
Virginia as well as the Governor of Maryland and the Mayor of 
D.C. So I can commit that safety is a very top priority, and I 
will do all in my power to make sure that the traveling public 
and our transit systems are safe and well maintained.
    Senator Brown. And that means proactive?
    Ms. Drake. I will do all in my power that I can do.
    Senator Brown. I am concerned that the States' oversight 
agencies may not be planning to conduct regular unannounced 
inspections as they ramp up oversight.
    GAO recently noted the need for inspections too. Are 
inspections a core element of an oversight program?
    Ms. Drake. Senator, I do believe inspections are a core 
oversight. Not being at FTA, I cannot describe to you how 
things are being done, but I can commit to you that once 
confirmed or if confirmed that I will do everything in my power 
to make sure that the public is safe.
    Senator Brown. Does that mean that--do you from your 
transit history in Virginia is--do you believe that regular 
unannounced inspections are a key part of this?
    Ms. Drake. Senator, we worked very diligently on how to set 
up an oversight committee that later morphed into going to FTA. 
So I look forward to hearing what is taking place and how we 
move forward to guarantee the safety of our systems.
    Senator Brown. But you are not committing to this Committee 
that part of oversight is to make unannounced inspections, to 
make sure that rail cars and other public transit vehicles and 
facilities are safe?
    Ms. Drake. I do believe, Senator, that there should be 
inspections of our system and not just waiting until there is a 
tragedy to come in.
    Senator Brown. The inspections you have--you are conflating 
with--you are slicing pretty thin that inspections does not in 
your mind mean unannounced inspections, regular unannounced 
inspections?
    Ms. Drake. Senator, I look forward to hearing more. I do 
know there is a distinction between an inspection and an 
investigation, and I do hope that there are investigations that 
take place so that we prevent any accidents from happening.
    Senator Brown. Well, I think inspections sound pretty 
preventative. Investigations sound like something to happen at 
Fort Totten. What did we do about it? It just seems to me I 
hope you will carry out of here the interest of this Committee 
that unannounced inspections are much more likely to result in 
improvements to public safety than inspections that the transit 
system is expecting you to--is scheduling and preparing for.
    Ms. Drake. Thank you, Senator.
    Chairman Crapo. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Congresswoman, congratulations on your nomination.
    I just want to ask you. You and I had a conversation in my 
office. I appreciate you coming to visit. With reference to 
Gateway----
    Ms. Drake. Yes.
    Senator Menendez. ----do you consider Gateway a project 
that is nationally important?
    Ms. Drake. Senator, this is a very important project. I 
know it is very important to you, and I look forward to working 
with you on the project.
    Senator Menendez. OK. I appreciate that, but that is not 
the question I asked you.
    The question I asked you, do you consider Gateway a project 
of national significance?
    Ms. Drake. I think it is a very significant project, 
Senator, and what I can commit to you is I would want to review 
the project. I am hopeful at some point to see some of the 
components of the project, schedule a briefing on the project, 
so that I am much more engaged and involved with it. I----
    Senator Menendez. This is a different answer that you gave 
me in my office. In my office, you told me that, yes, this was 
a nationally important--so something has happened between----
    Ms. Drake. Yep.
    Senator Menendez. ----your honest--I assume your honest 
answer to me in my office and the answer I am getting here now.
    Ms. Drake. Senator, I consider this a very significant 
project.
    Senator Menendez. OK. That is not the same as saying that 
it is a nationally important project, which is what you said in 
my office.
    Let me ask you something--so evidently, you have been 
instructed to say something different--for a new starts or core 
capacity project, what is the minimum percentage of the total 
project cost that a local sponsor must commit of their own 
funding to earn a medium rating?
    Ms. Drake. Senator, not being at FTA, I do not have access 
to that information to answer in that detail that you are 
asking.
    I can say to you that I do think there should be a balance 
between the Federal and the local commitments to a project.
    Senator Menendez. Well, what do you think that should be?
    Ms. Drake. Senator, I am happy to get back to you, if 
confirmed to the position.
    Senator Menendez. No, no, no, no, no, no, no. You came to 
my office. Now you have changed your testimony here from what 
you told me in my office about Gateway being a project of 
national significance, and then we discussed about what should 
be the percentage for a local share of any project.
    The only way for anybody to understand whether their 
project is being legitimately scored is understanding what the 
ground rules are. So you do not have to be at the agency to 
give me a sense of what your belief is, that a percentage 
amount of--is it 10 percent? Is it 20 percent? Is it 50 
percent? What is it?
    Ms. Drake. Senator, my understanding is this project is 
currently working through the process at FTA. I do not know the 
details of it. I look forward to more.
    Senator Menendez. I am not--Congresswoman, I am not talking 
about this specific project.
    My question in general was for a new starts or core 
capacity project, whatever that project might be, what is the 
minimum percentage of a total project cost that the local 
sponsor must commit of their own funding to earn a decent 
rating, a medium rating? I think that is a pretty 
straightforward question in terms of what is your views.
    If you are going to be the Administrator, what is your 
views about what that should be?
    Ms. Drake. Senator, I do not know the numbers for a low or 
a moderate or a medium or a highly rated project, but I can 
commit to you that I will get that information. I will be 
briefed on it, and I am happy to get back with you, if I am 
confirmed and able to have all that information to discuss it.
    Senator Menendez. Well, I think the confirmation is going 
to be in trouble, to be honest here, unless I can get better 
answers.
    If you do not have clear parameters, how can a local 
project sponsor have faith that their projects are being judged 
fairly? How can they have faith that their projects are judged 
by objective standards and not by political whims?
    And so I personally cannot vote for you if this is going to 
be your set of answers, nor will I allow on the floor for you 
to proceed without some clarity. And if we have to have a 
debate as to why I hold that view, I am happy to do that.
    Let me ask you this: How would you handle a situation in 
which you or the staff at the FTA were instructed by anyone in 
the Department of Transportation or the White House to reject a 
downgrade on--to reject or downgrade a new starts application 
for political reasons?
    Ms. Drake. Senator, I am not at FTA, but what I can commit 
to you is that I will treat all projects fairly and in 
compliance with the law. I will have a review and happy to get 
back with any of the Members----
    Senator Menendez. That is not my question.
    Ms. Drake. ----as to their projects.
    Senator Menendez. That is not my question, Congresswoman.
    So you are now at FTA, if confirmed, and you are instructed 
by someone, the higher up at the Department of Transportation 
or for that fact the White House, to reject or to downgrade new 
starts applications for political reasons. What is your answer 
to that request?
    Ms. Drake. Senator, my answer is all projects will be 
treated fairly and in compliance with law.
    Senator Menendez. The answer should be ``No, I will not 
reject or downgrade a project because you politically want it 
so,'' and the fact that you cannot make that simple statement 
is alarming to me.
    Thank you, Mr. Chairman.
    Chairman Crapo. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    We face many serious housing problems in this country. 
Fifty years after the Fair Housing Act passed, housing 
discrimination is rampant. Finding affordable housing is hard, 
particularly for the poorest families. Victims of natural 
disasters are struggling to rebuild their communities. HUD has 
a very long to-do list.
    Now, Mr. Appleton, you have been nominated to lead HUD's 
Office of Policy Development and Research. That office collects 
data about the housing problems American families face and 
tries to test out possible solutions. This is one of the most 
important jobs at HUD because the only way to fix hard problems 
is to follow the evidence. So I want to explore how you will 
approach your job.
    Mr. Appleton, I understand that one of the areas your 
office will look into is housing affordability; is that right?
    Mr. Appleton. Yes, ma'am.
    Senator Warren. Thank you.
    As you know, HUD provides support to low-income families in 
a couple of ways, including the Housing Choice Voucher Program. 
Waiting lists for vouchers which limit rent to one-third of a 
person's income are now sometimes years long before families 
can get these.
    In fact, the Office of Policy Development and Research, the 
office that you would head up, has already found that fewer 
than one in four people who qualify for HUD housing assistance 
get it; is that right?
    Mr. Appleton. Yes, ma'am.
    Senator Warren. Yeah. Well, what that means is that three 
in four who qualify do not get it, and many pay more than 50 
percent of their incomes on housing. That leaves almost nothing 
for food or shelter or child care or medical emergencies, and 
families just cannot make the math work.
    According to a new study, 2.3 million people were evicted 
from their housing in 2016, but HUD is not even trying to meet 
this need. HUD's 2019 budget requests cuts in funding for its 
rental assistance program by 11 percent. Draft legislation 
revealed that the White House was planning to raise rents and 
impose work requirements on families who already receiving 
housing support.
    These changes are driven by politics, not by policy and not 
by evidence. Experts say that the vast majority of residents 
who receive housing assistance already work, if they can, and 
that they still need help.
    So if you are confirmed, you will be Ben Carson's principal 
advisor on policy, on program evaluations, and on basic 
research. Do you promise that you will accurately convey what 
the data show and push for a proven evidence-based solution in 
every conversation you have with him?
    Mr. Appleton. Without question, yes.
    Senator Warren. Good. I want you to hear me. I said every 
conversation.
    Mr. Appleton. Yes.
    Senator Warren. All right. And does that include situations 
where your answer is ``We need more money''?
    Mr. Appleton. Yes.
    Senator Warren. Good.
    A home is more than a shelter. It is the foundation for a 
family to build a life, to build a little economic security. A 
child with a stable home can stay in the same school all year, 
focus on learning instead of worrying about when they are going 
to have to pack up their toys and move. Young parents buy a 
home in order to try to build some wealth and ultimately be 
able to use it to send their kids to college or as collateral 
to start a business.
    Since Secretary Carson took over, HUD has taken one action 
after another that has cut the legs out from underneath 
American families. He has dismissed the challenges poor 
families have in finding housing and ignored information about 
how HUD can help them, and that policy is bad. It is also 
cruel.
    So I hope you will work to reverse that trend.
    Mr. Appleton. Absolutely. I am committed to working with 
you and this Committee and following the evidence and the 
research where it leads us. I think it is really important.
    Senator Warren. Thank you, Mr. Appleton. I appreciate it.
    Thank you, Mr. Chairman. Thirty-eight seconds under.
    Chairman Crapo. Duly noted.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Good morning. Mr. Nadaner, you touched on this briefly when 
you responded to the Chairman, but let me ask you to elaborate 
a little bit. Do you have any thoughts on this particular CFIUS 
legislation? Are there any closer areas that you think the 
Committee should be taking a closer look at with regards to the 
CFIUS reform? Can you flesh it out a little bit in terms of 
your thought process?
    Mr. Nadaner. Yes, Senator Rounds.
    I participated in the CFIUS process when I was a Defense 
Department official, and that was following a congressional 
effort to strengthen the process following Dubai Ports, and 
that was a good thing.
    I think the threat has grown only since then. So I think it 
is wise, and I think it is salutary that the legislation is 
being revisited.
    However, I would note that--it is a great strength of the 
American system that we have monitored in-bound investment into 
the United States in one process and that export controls in 
another process, and the export control system is very 
advanced. It is the most advanced system in the world.
    In fact, one of the missions of export enforcement at 
Commerce is to help other countries develop their capacity for 
such a system.
    So I would say that I have not been privy to the latest 
Administration positions on CFIUS reform or negotiations with 
this Committee. However, I would say it is good to update the 
legislation, but at the same time, it is also good to preserve 
the export control system that has been developed very 
carefully over several Administrations now, going back several 
decades.
    Senator Rounds. OK. Let me move on a little bit to another 
area with regard to dual use technologies. As you know, if you 
are confirmed, your position will be responsible for dual use 
export policy. With advancements being made in technology of 
all kinds, it appears to me that the line between what is and 
what is not considered to be dual use can become a gray area.
    If you are confirmed, how do you plan to make sure that we 
are protecting technologies that have a dual use?
    Mr. Nadaner. The law is far-reaching. It had a certain 
amount of genius that was in the original Act several decades 
ago. It saw where things were going that a lot of the research 
and development dynamism was moving toward the commercial 
sector and, hence, sensitive and dual use technologies being of 
a special concern, not just purely military technologies.
    From what I have seen as a nominee, the Department is 
fairly up to date, and Export Administration, if confirmed, my 
colleague, Rich Ashooh, the Assistant Secretary for Export 
Administration and Licensing, it seems to me that this is a 
matter that they have all 10 fingers around.
    If confirmed, from an enforcement perspective, I will 
certainly bring my views to bear, and I have a couple decades 
involved in the technology, particularly the newer realms of 
technology.
    Senator Rounds. Mr. Appleton, as you note in your 
testimony, one of the roles that HUD's Office of Policy 
Development and Research plays is disseminating economic 
information of our Nation's housing market. HUD conducts 
studies, including the American Housing Survey, as well as 
other analysis to determine the health and needs of the housing 
market.
    Overall, what is your current opinion of the housing 
market, and what are your top priorities for HUD's Office of 
Policy Development and Research if you are confirmed?
    Mr. Appleton. Thank you for that question, Senator.
    As far as the overall housing market, I think that we are 
in a little bit of a static period. We have seen a recovery 
since the financial crisis, and we have seen an increase in 
demand, particularly for affordable housing, but we are not 
able to keep up with that demand.
    As far as my priorities for HUD's Office of Policy 
Development and Research, I am very interested in doing more 
research on long-term disaster recovery as well as housing 
affordability and also tracking what happens to families who 
leave HUD assistance.
    We do not have very good metrics in place on if our 
programs are leading to successful exits and outcomes, and I 
think that that is a very important conversation that we need 
to have.
    Senator Rounds. Thank you.
    Mr. Chairman, I am getting close to the end, but may I ask 
one more question of Congresswoman Drake, please?
    Chairman Crapo. Briefly.
    Senator Rounds. Thank you.
    Congresswoman Drake, in addition to serving here on the 
Banking Committee, I am also a member of the Environment and 
Public Works Committee, where we have had the opportunity to 
discuss in more depth an infrastructure package that the 
President and the Committee have been advocating for. Could you 
comment on the state of our Nation's transit, briefly, and the 
infrastructure and the role that you believe transit should 
play in an infrastructure package?
    Ms. Drake. Mr. Rounds--Senator, I would just comment to you 
that transit plays a very key role, both in the environment in 
reducing emissions and the use of single-occupant vehicles and 
is a very key component of a successful transportation network 
to reduce congestion as well.
    So I am very hopeful, if confirmed, that I will be working 
with you in the future on those issues and that we will have 
further discussions about it.
    Senator Rounds. And besides that, there may be a revenue 
source involved there as well.
    Ms. Drake. That would be very helpful. Thank you.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank the witnesses and your families, and it is 
great to have your families here as well. Thank you very much.
    Ms. Drake, as we discussed when we met last week, I am 
fortunate to come from a State that understands the importance 
of public transit.
    We have a number of communities that are investing in 
transit systems in order to ease congestion and grow local and 
regional economies.
    The support for these projects is bipartisan. It spans the 
gamut of Federal, State, and local governments. From myself to 
the Governor to the local county and city councils, we have 
expressed support for smart and sensible investments in 
effective transit.
    I also hope to work with President Trump on infrastructure 
investments as our country desperately needs to commit to 
improving our infrastructure on numerous fronts.
    Unfortunately, when it comes to transit projects, 
particularly those in the Capital Investment Grant Program, 
projects in Indiana have experienced a number of challenges 
from this Administration. Indiana has a number of projects in 
the Capital Investment Grant Program. As the projects have 
slowly progressed, we have been dealing with frustrating 
delays. We have been dealing with delayed funding for already 
approved projects, which creates a domino effect, that then 
delays construction and puts contractors in difficult 
situations with no work for employees and a lack of funds for 
small businesses.
    We have had difficulty getting FTA to communicate with 
project sponsors on concerns FTA has raised to us, and then FTA 
has withheld other concerns until the last minute.
    Ms. Drake, you have worked on these types of projects 
throughout your career. You know they can take years to 
develop. You know how much up-front hard work it takes for 
communities before they even apply for the funding. When FTA 
does not uphold its end of the bargain, everyone gets 
frustrated.
    I am not alone with my frustration, as Congress just felt 
the need to use the recent Government funding bill to 
explicitly direct the Department to administer the Capital 
Investment Grand Program in accordance with the law.
    Should you be confirmed to head FTA, can you commit to me 
that FTA will work in good faith with project sponsors, 
providing prompt answers and reviews, informing project 
sponsors about concerns, and helping them problem-solve 
throughout the project?
    Ms. Drake. Senator, if confirmed to FTA--and certainly, not 
having been there, I cannot address the concerns that you have 
raised--I do know it takes a very long time. Norfolk has a 
light rail system that took a number of years to be able to 
bring up, but I can commit to you that all projects will be 
treated fairly, that FTA will act in accordance with the law, 
and that there will be communication between you and the 
stakeholders involved.
    Senator Donnelly. In addition, the recent omnibus funding 
bill also included a requirement that FTA provide updated 
project ratings at the request of the project sponsor. Should 
you be confirmed, can you describe to me what steps you will 
take to provide these updated ratings in a timely basis?
    Ms. Drake. Senator, if confirmed, I can commit to you that 
FTA will comply with all aspects of the law, and so although I 
do not know the exact details of how that will happen or what 
you will be provided with, but FTA will comply with the law. 
And this information will be made available.
    Senator Donnelly. And last but certainly not least, a lot 
of Hoosiers rely on transit to get to work each day, and a 
significant number of my fellow friends and neighbors get up 
each morning and go to work building the buses and the trains 
that get Americans across the country to where they want to go.
    I firmly believe that the Federal Government should be 
doing everything it can to give preference to American goods 
and services in order to ensure taxpayer dollars are used to 
support investments in American companies and workers.
    Can you commit to me that to the fullest extent possible, 
FTA will buy American?
    Ms. Drake. Senator, I can assure you that the Department of 
Transportation and Secretary Chao are working diligently to 
implement the aspects of Buy America. I join them and am very 
happy to commit to you that I will work with them in 
implementing Buy America.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and welcome to 
all of you, and congratulations on your nominations.
    I am going to start with Ms. Drake. Good to see you. We 
served together in the House, and when you and I met, I asked 
you about a number of transit issues. Among them was the 
Washington Metro System.
    Ms. Drake. Of course.
    Senator Van Hollen. And as a Virginian, I think you 
understand the importance of our Washington Metro System to the 
economic health of the region. It is also called the Nation's 
Metro System because it transports a large share of the Federal 
workforce to work every day. Is not that right?
    Ms. Drake. That is absolutely correct, Senator.
    Senator Van Hollen. And I appreciate your comments 
regarding the imperative for safety, especially following the 
Fort Totten tragedy.
    The Washington Metro System now is a compact between the 
Federal Government and the District of Columbia, the State of 
Virginia, and Maryland; is that right?
    Ms. Drake. Yes, Senator, it is a compact with the three 
entities, but in Virginia, it is the local governments.
    Senator Van Hollen. Yeah.
    Ms. Drake. But the State has stepped into that funding 
role.
    Senator Van Hollen. Right.
    Mr. Chairman and the Ranking Member just recently--and this 
has been a big issue in our region. The District of Columbia, 
the State of Virginia, and the State of Maryland have now all 
pledged dedicated funding to the Washington Metro System as 
part of this partnership----
    Ms. Drake. Right.
    Senator Van Hollen. ----along with the Federal Government.
    The authorization for that partnership expires at the end 
of this fiscal year. It was a 10-year authorization. The State 
of Virginia, the other parties have now pledged their continued 
support. In fact, they have upped their support in the sense 
that it is dedicated, right?
    Ms. Drake. Yes, Senator. Virginia has stepped up to the $50 
million a year.
    Senator Van Hollen. Yeah. And Maryland has recently taken 
those actions too, as has the District of Columbia.
    So when we met, you said you would be committed to working 
with me to ensure the continued Federal commitment to the 
Washington Metro System, and I just ask you today if you are 
willing to work with us to make sure the Federal Government 
remains a partner going forward.
    Ms. Drake. Senator, in the FY19 budget, there is funding 
for extending PRIIA.
    Senator Van Hollen. Yeah.
    Ms. Drake. For fiscal '19, I can--certainly worked very 
closely with the WMATA system, with Senator Warner, when I was 
at Department of Rail and Public Transportation, and yes, I can 
commit to you there is significant needs at WMATA. And I intend 
to work very closely with all of you to meet those needs.
    Senator Van Hollen. No, I appreciate that. There was a big 
backup on the Red Line today, apparently at Union Station, so 
we know that we need----
    Ms. Drake. We need----
    Senator Van Hollen. ----significant effort.
    And I do appreciate, as I told you when we met, that the 
Administration requested funds----
    Ms. Drake. Yes.
    Senator Van Hollen. ----for fiscal year 2019. We need to up 
it a little bit. I think the number was $120 million. The 
annual allotment from the Federal Government has been $150 
million, but we can work on that.
    But my question is, as you just recognized and as I said in 
my question, that the 10-year authorization does expire at the 
end of this fiscal year.
    Ms. Drake. Yes.
    Senator Van Hollen. And what I am asking for is your 
commitment to maintain the Federal Government's commitment to 
the Washington Metro.
    Ms. Drake. Senator, I can commit to you that, if confirmed, 
I will be very involved in those discussions at FTA and work as 
diligently as I can to meet the needs of the Metro System.
    Senator Van Hollen. But do you agree that the Federal 
Government is an essential partner in the Washington Metro 
System?
    Ms. Drake. The Federal Government is an essential partner. 
I can----
    Senator Van Hollen. OK.
    Ms. Drake. I can agree with you on that statement.
    Senator Van Hollen. Thank you.
    So to Mr. Nadaner, congratulations again on your 
appointment. Good to have a Marylander appointed to this 
position, and some of my questions were already covered by the 
Chairman with respect to CFIUS. I really want to make sure that 
we--you are an important--have important oversight over 
especially dual use technologies, especially to countries like 
China, where I think you play an essential role to make sure 
that none of those exports are able to be diverted to military 
purposes.
    And, Mr. Appleton, I see that my time is going to expire 
shortly, but you have been nominated to lead the Policy 
Development and Research operation, which was very involved in 
the study of HUD's Small Area Fair Market Rents. Are you 
familiar with that program?
    Mr. Appleton. I am.
    Senator Van Hollen. And I look forward to the continuing 
research on that.
    As you probably know, back in August of last year, the 
current Secretary of HUD essentially put that on hold. A court 
later ordered him to proceed. What is your assessment of that 
program? Because it was designed specifically to make sure that 
the rents provided under the Housing Choice Voucher Program are 
better tailored to allow people to live in a number of 
different areas and move to more higher opportunity areas; is 
that right?
    Mr. Appleton. Yeah. I mean, I think I have committed to 
making sure it is successful.
    My understanding is the reason the mandatory implementation 
was paused over the summer was because of a third-party 
contractor report that raised concerns about availability of 
units, voucher success rates, and utilization as well as 
increased rent burdens on voucher households.
    But as you noted, the District Court has directed HUD to 
implement that, and it is--guidance has been issued. There have 
been live in-person trainings, Web trainings, and also 
technical assistance deployed by PD&R to ensure that the PHAs 
in 24 metropolitan areas across the country can implement this 
successfully.
    Senator Van Hollen. Good. Look forward to working with you 
on that.
    Mr. Appleton. Me too.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Cortez Masto. Thank you.
    Welcome to all of your families, and congratulations to all 
three of you on your nominations.
    Ms. Drake, thank you for taking the time to meet with me. I 
would like to start with you. As we discussed in our meeting, a 
transit is an incredibly important resource in my State, in 
both urban and our rural areas. I cannot tell you how often I 
hear about the challenges and opportunities presented by 
transit from everyday movement of my constituents to their 
jobs, education, and to providing transportation to the over 40 
million visitors every year that we have to the State of 
Nevada.
    It is important in my State, and we talked a little bit 
about this, the projects that are going on from Northern Nevada 
where the Washoe Regional Transportation Commission has a 
specific Bus RAPID Transit Project in the works. It is the 
Virginia Street Bus RAPID Transit project in the works. That 
will seek FTA support to Southern Nevada Regional 
Transportation Commission, where SIG funding is critical for 
several projects in the Las Vegas area.
    And I have heard directly from our rural Nevada communities 
that they need more options to move the residents in and out of 
town. NDOT reports that over 2.5 million are aided by FTA funds 
to our Nevada Department of Transportation.
    So can I get your commitment that you will be the voice and 
champion that we need in the Department of Transportation to 
make sure that transit is on equal footing with other modes of 
transportation, that you will work with Congress to implement 
the letter and intent of what we pass here through 
authorization and appropriations?
    Ms. Drake. Senator, if confirmed to FTA, I can make the 
commitment to you that I will be the transit advocate, and we 
talked about that in your office. And thank you for taking the 
time to meet with me as well.
    I can also commit to you that all projects will be looked 
at and treated fairly and dealt with in compliance with the 
law, so I can make that commitment to you.
    Senator Cortez Masto. Thank you.
    And then we also talked about how innovation plays a 
valuable role in our----
    Ms. Drake. Yes.
    Senator Cortez Masto. ----transit services, correct?
    And I believe we even talked about the fact that Senator 
Burr and I have introduced a bipartisan bill, the Moving FIRST 
Act, to reestablish a competitive grant program for supporting 
SMART communities throughout the country, both in urban and 
rural areas.
    Can I get your commitment to continue to consider support 
and fund innovation through your various FTA programs, where 
appropriate?
    Ms. Drake. Senator, if confirmed to FTA, I can make the 
commitment to you that it is absolutely one of my priorities 
for innovation and for technology to make sure that our transit 
systems run more efficiently, more effectively, provide better 
service, and it is very exciting. I am very excited about some 
of the things that are taking place.
    Senator Cortez Masto. And for that reason, can you just 
give me your thoughts on where you see technology playing a 
greater role in transportation, transportation mode?
    Ms. Drake. Well, I think technology in terms of autonomous 
vehicles, in terms of smart apps that could be used, the 
research division that is at FTA, just a lot of interesting 
possibilities there--and the goal to make it an easier transit 
ride where more people will choose to use transit rather than 
driving their vehicles.
    Senator Cortez Masto. Thank you. Thank you very much.
    Mr. Appleton, great to see you again as well.
    Mr. Appleton. Good to see you, ma'am.
    Senator Cortez Masto. And so we similarly had a 
conversation, and I believe the number one thing we talked 
about was that nearly every community in this Nation has an 
affordable housing crisis, rental housing crisis. In Nevada, it 
is rental, high rents. It is lack of inventory. It is a number 
of things.
    So can I ask you, what are the three things you will do to 
address the affordable rental--let us talk about rental housing 
crisis.
    Mr. Appleton. Sure. I think that the first thing I will do 
is talk to my colleagues at Treasury and USDA as part of what 
is called the Rental Policy Working Group. We need to get that 
elevated, I think, to a leadership level. That there is an MOU, 
I understand, that already exists to do that, because in 
addition to HUD, Treasury runs the Low-Income Housing Tax 
Credit Program, and USDA's Rural Housing Service is also 
integrally involved. So that is one thing.
    Second, I think HUD and PD&R specifically can serve as a 
clearinghouse of best practices for communities that want to 
make progress on this, on things such as restrictive growth 
management controls, excessive affordable housing development 
fees, things of that nature, where we can really inform 
communities on how to do things better on the score.
    And last, I think we need to look at the Moving to Work 
expansion that has been authorized by Congress for 100 
additional PHAs. One of the things we are going to be testing 
as part of that expansion demonstration is PHA flexibility, and 
I think that one of the things we want to see is if that 
additional flexibility actually leads to being able to serve 
more households that are currently not served.
    Senator Cortez Masto. Thank you.
    And I know my time is running out. Just recently, I 
convened a stakeholders group in Southern Nevada to address 
affordable housing needs. HUD was there along with USDA. Can I 
get your commitment that you will continue to be a part of our 
working group to figure out how we address the needs of 
affordable housing in the State of Nevada?
    Mr. Appleton. Absolutely, Senator. I am fully committed to 
working with you and your constituents on this very important 
issue.
    Senator Cortez Masto. Thank you very much.
    My time has run out.
    Congratulations to all three of you.
    Mr. Appleton. Thank you.
    Chairman Crapo. Thank you, Senator.
    And that concludes the questioning for today's hearing. I 
again thank all of the witnesses for being with us today and 
for your willingness to serve our country.
    For Senators who wish to submit questions for the record, 
those questions are due next Tuesday, April 24th, and we then 
ask that our nominees please responsd to those questions by the 
following Tuesday, May 1st.
    With that, this hearing is adjourned.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                   PREPARED STATEMENT OF THELMA DRAKE
       To Be Administrator of the Federal Transit Administration
                             April 17, 2018
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
the Committee, thank you for the opportunity to address you today and 
to answer your questions.
    I am honored to be nominated to the position of Administrator of 
the Federal Transit Administration. I would like to thank President 
Trump and Secretary Chao for their support and belief in me.
    I view transit as a key component of a transportation network. I 
realize that needs vary across our country and I look forward to 
engaging in the various discussions with stakeholders as to how 
construct, maintain, and operate successful systems.
    In Congress, I served on the House Transportation and 
Infrastructure Committee and while serving in the Virginia General 
Assembly, I was a member of the House Transportation Committee. I have 
also served as a member of the Virginia Commonwealth Transportation 
Board.
    After leaving Congress, I served as Director of the Virginia 
Department of Rail and Public Transportation (DRPT). While the Director 
of DRPT, I helped implement new processes and performance metrics that 
enhanced accountability and incentivized performance and efficiency for 
State transit systems. We also created a new model for funding capital 
investments that placed an emphasis on investment in rolling stock. My 
work included involvement with Virginia's transit systems; the 
Washington Metropolitan Area Transit Authority and Virginia's commuter 
rail system, the Virginia Railway Express.
    Secretary Chao and I share the same priorities for transportation. 
If confirmed, my top priorities will be:

  1.  The safety of our transit systems and the traveling public

  2.  Infrastructure support and investment

  3.  Preparing for the future through innovation

    Again, thank you for your time and consideration of my nomination. 
I would be honored to work with each of you on your priorities and to 
be an advocate for transit nationwide.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                 PREPARED STATEMENT OF JEFFREY NADANER
      To Be Assistant Secretary of Commerce for Export Enforcement
                             April 17, 2018
    Mr. Chairman, Ranking Member Senator Brown, Senators of the 
Committee, With reverence for our Nation's Constitution, I come before 
the Members of this Senate Committee to be considered for Assistant 
Secretary of Commerce for Export Enforcement. I express my appreciation 
for the confidence shown by the Secretary of Commerce, Wilbur L. Ross, 
Jr., and the nomination by the President of the United States, Donald 
J. Trump.
    As a child of World War II refugees, I was brought up with a 
profound gratitude for our Nation's incomparable freedoms, exceptional 
opportunities for economic betterment and dignity, and the women and 
men who--day-in and day-out, with little note but much dedication and 
sacrifice--ensure our safety and uphold our laws.
    The Assistant Secretary of Commerce for Export Enforcement and 
Bureau of Industry and Security as a whole work to ensure that our 
adversaries do not have access to sensitive technologies and weapons of 
mass destruction. Effective harnessing of the Commerce Department's 
capabilities is indispensable to preventing the diversion of dual-
purpose U.S. technologies to enemies who may threaten our military, our 
homeland, and our citizenry. Enforcement of the law is a sine-qua-non 
for protecting our Nation's security, and the U.S. defense industrial 
base and its intricate supply chains, which are its foundation. Robust 
enforcement is central to ensuring Congressionally mandated sanctions 
and anti-boycott laws have effect.
    If confirmed, I will bring to bear more than two decades of 
experience in national security, industry, and Federal law--from the 
vantage points of both the public and private sectors. My current 
duties with the Marine Corps center on U.S.-foreign technology 
competitions, cyber and informational threats, and military and 
security operations.
    Earlier at the Lockheed Martin Co. and several small businesses, I 
concentrated on aerospace and defense technology; mergers, 
acquisitions, and joint ventures; and U.S. procurements and foreign 
exports. I have managed hardware and software research and development 
(R&D) portfolios. I have partnered with scientists and engineers in a 
range of advanced technical domains. I have worked on protecting and 
improving crucial supply chains, global and domestic. Integral to all 
of my undertakings involving foreign sales and entities was operating 
under Commerce and State Department led export control systems, and 
anti-boycott and anti-corruption laws.
    Before that, while Deputy Assistant Secretary of Defense for 
Stability Operations and Partnership Strategy, I oversaw exports of 
U.S. military equipment and services to countries across the globe. 
These transfers involved extensive compliance with the U.S. export 
control systems to safeguard sensitive technologies, and protect U.S. 
national interests and values. In this regard, I had the honor of 
working with both sides of the aisle in the Senate and House of 
Representatives to produce bipartisan national security legislation.
    Teaming with the members of the career civil service, I developed 
short- and long-term national security policies, joined efforts with 
the intelligence community and a range of Federal departments and 
agencies, and advanced interagency decision making. I developed rich 
experience negotiating with foreign countries on behalf of the United 
States with respect to technology uses, transfers, and partnerships.
    Among my highest privileges has been to serve as a U.S. Department 
of Justice trial attorney. I have represented an array of Federal 
departments and agencies in litigation arising out of their law 
enforcement, regulatory, and administrative activities. I understand 
the conditions and frameworks under which our officers and agents act. 
I have seen crimes' effects. I have conducted investigations and 
enforced subpoenas. I have worked with U.S. Attorney offices. I have 
filed suits, negotiated advantageous settlements, and brought cases to 
favorable judgment for the United States.
    If confirmed by the Senate, I will steadfastly enforce U.S. export 
controls, sanctions, embargos, and anti-boycott laws, while strenuously 
advancing policies that safeguard American jobs, technologies, and 
industries that form our indispensable national industrial base. Mr. 
Chairman, Senator Brown, and Senators of the Committee, I will be 
honored to answer any questions you may have and please accept my 
appreciation for your consideration of this nomination.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                  PREPARED STATEMENT OF SETH APPLETON
 To Be Assistant Secretary of Housing and Urban Development for Policy 
                        Development and Research
                             April 17, 2018
    Chairman Crapo, Ranking Member Brown, distinguished Members of this 
Committee, thank you for convening this hearing. It is an honor to 
appear before you as the nominee to be Assistant Secretary of Housing 
and Urban Development for Policy Development and Research. As a former 
staffer in the House of Representatives, I have sat along the wall 
behind the dais, but never at the witness table. To be sure, it is a 
humbling experience, as I have a great deal of respect for this 
institution and the important role it plays in confirming nominees for 
service in the executive branch.
    Before I begin my testimony, I would like to recognize my family. 
My wife, Brooke, is here today. In typical Capitol Hill fashion, we met 
first as colleagues in the House. My mother, Susan, and my father, Bob, 
are both here today from St. Louis. My mom has been a law professor for 
the last 43 years and taught me the value of research from a very young 
age. My brother, Jesse, and his wife, Ali, are here from St. Louis, 
too. Along with them is my nephew Bennett, who will soon be celebrating 
his first birthday. Hopefully, he will enjoy his first congressional 
hearing. On Brooke's side of the family are my in-laws, Barb and Tim 
Shupe from Stanberry, Missouri. Last, but certainly not least, is my 
grandmother Winifred Frelich, who, hopefully, is watching the broadcast 
at home in St. Louis. She just celebrated her 93rd birthday on Friday 
and reminded me that she was the one who brought me to Washington, and 
indeed the Senate, for the very first time during a spring break nearly 
30 years ago. In addition to my family, I would also like to thank 
Senators Blunt and McCaskill, as well as the entire Missouri 
congressional delegation, Republicans and Democrats alike, for 
supporting my nomination.
    HUD's Office of Policy Development and Research (PD&R) plays a 
critical role for the entire Department, coordinating recommendations 
on policy matters, overseeing research projects and demonstrations, 
disseminating economic information, and managing international programs 
and philanthropic initiatives. It is on the cutting edge of identifying 
new trends and finding innovative solutions to the housing and 
community development challenges of the day. As such, the Assistant 
Secretary must be familiar with the public policy development process, 
understand the importance of sound research in formulating evidence-
based solutions, and provide effective leadership, management, and 
budget oversight to the PD&R team. If confirmed, I am committed to 
serving as a partner to this Committee and the Congress, which has long 
been involved in shaping PD&R's research and policy work.
    I believe I am well-suited to serve in this position based on my 
public policy and management experience. Following my graduation from 
Stanford, I worked in the U.S. House for 13 years, first as a 
legislative staffer, then as a Chief of Staff. As a legislative 
staffer, my portfolio included housing policy, and I later had the 
opportunity to really focus on this topic, as it was a priority for 
Congressman Luetkemeyer in his role as Chairman of the Subcommittee on 
Housing and Insurance. An example of the policies we worked on is H.R. 
3700, the Housing Opportunity Through Modernization Act (HOTMA), which 
passed both the House and Senate unanimously and was signed into law by 
President Obama in 2016.
    In addition to focusing on policy matters, I gained valuable 
management experience in the course of building, organizing, and 
leading a team of staffers in Missouri and Washington. I worked to 
ensure our entire team was involved in a collaborative process to craft 
sound initiatives. This included everything from generating ideas, to 
reviewing research, to developing partnerships and building coalitions. 
All of this was done with one underlying objective in mind: to improve 
the lives of the people we served.
    In July 2017, I left my position in the House to join HUD as 
General Deputy Assistant Secretary and Acting Assistant Secretary in 
the Office of Congressional and Intergovernmental Relations. Besides 
affording me the opportunity to work with many of the Senators and 
staff in this room, this role has also allowed me to interact with all 
of the Department's program and support offices, across silos, 
including PD&R. Prior to being nominated, I worked with PD&R's staff on 
a variety of issues including grants, university partnerships, 
technical assistance, and disaster response.
    PD&R has an outstanding team of dedicated civil servants. If 
confirmed, I very much look forward to leading that team, advocating 
for its work, and ensuring that its products meet Congress' intent and 
are utilized for the betterment of those served by HUD. Our policy 
solutions should be evidenced-based, backed by sound data, and tested 
by well-designed demonstrations and thorough research.
    In closing, I believe my housing policy and management experience 
in the legislative and executive branches has prepared me well to serve 
as Assistant Secretary. If confirmed, I look forward to working with 
this Committee to advance policies that address the priorities and 
needs of the American people. I would be pleased to answer your 
questions and honored to earn your support.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                       FROM THELMA DRAKE

Q.1. Congress made a determination in MAP-21 that safety of 
rail transit agencies should be overseen by a right-sized State 
Safety Oversight (SSO) Agency, rather than a one-size-fits-all 
Federal approach. In order to prevent FTA from assuming 
provision of direct safety oversight, Congress wrote into 
statute a deadline for compliance which is April 15, 2019, with 
only 8 of 30 States currently certified to be in compliance.
    If you are confirmed as Administrator, how do you plan to 
work with the remaining States to achieve compliance with this 
requirement and ensure that our Nation's rail transit systems 
are efficiently and effectively overseen?

A.1. Safety is my highest priority, and if confirmed as 
Administrator I will work closely with the remaining States to 
help stand up their Safety Oversight Programs and fulfill their 
safety responsibilities. It is my understanding that 11 States 
have now achieved SSO certification.

Q.2. In 2016, the FTA established the Mobility on Demand (MOD) 
grant program to help spur innovation and infuse technology 
into our Nation's public transit systems. The program revealed 
that FTA may need new regulatory guidelines or policy changes 
to allow transit agencies to fully realize the promise of 
innovations in shared mobility and mobility on demand. Of the 
11 grant winners, Transportation Network Companies (TNCs), such 
as Uber and Lyft, were involved in nine of the projects, which 
indicates that there is tremendous interest from both the 
private sector and public transportation authorities for this 
new service.
    If you are confirmed as Administrator, what steps will you 
take to utilize the findings of the MOD grants to reduce 
antiquated regulations and set in place a modern regulatory 
regime at FTA that enables innovative new technologies to 
partner with transit agencies in the long term?

A.2. If confirmed, I will utilize the information and findings 
gleaned from the Mobility on Demand grants and work with the 
FTA research team to help pioneer innovative and streamlined 
approaches to mobility. From on-demand services, to smartphone 
applications, to partnerships with the private sector, I feel 
strongly that innovation is key to public transportation 
thriving in an ever more-competitive marketplace.

Q.3. FTA is divided into 10 regions. Project sponsors have 
found that different regions tend to provide different answers 
and oftentimes headquarters finds out about the discrepancies 
when Congressional staff brings it to their attention.
    If you are confirmed at Administrator, can you commit to 
reviewing the decisions made in regional offices to ensure 
consistency? Will you seriously consider how the regional 
decisions are communicated with headquarters and how 
headquarters commutes decisions to the regions, in order to 
ensure that Federal transit statutory, regulatory, and 
administrative interpretations are being equitably applied 
across all regions?

A.3. If confirmed, I will make ensuring consistency throughout 
FTA a priority. I will take a very close look at how FTA 
headquarters communicates decisions to the 10 regional offices 
and vice versa. I will also commit to reviewing decisions made 
in regional offices to ensure consistency.

Q.4. The provisions regarding the Core Capacity evaluation and 
rating process, the establishment of a program of interrelated 
projects and the program for expedited project delivery are yet 
to be implemented by this Administration. An upcoming 
Government Accountability Office report states that FTA 
officials told GAO they ``do not have plans to address'' three 
statutory provisions intended to deliver transit projects more 
efficiently citing the President's budget proposal to eliminate 
the program, despite the recent FY2018 Appropriations bill 
providing additional resources to the program and directing the 
Administration to continue to administer the program.
    If you are confirmed as Administrator, do you plan to 
implement the statutory provisions to streamline processes and 
leverage Federal resources?

A.4. If confirmed as Administrator, I plan to implement 
programs and processes consistent with the law and leverage 
Federal resources wherever possible and streamline programs 
wherever possible to efficiently serve the American people.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                       FROM THELMA DRAKE

Q.1. Since 1983, when President Reagan signed the law that 
created the Mass Transit Account, Congress has allocated at 
least 20 percent of new revenue deposited in the Highway Trust 
Fund to public transportation. For example, in 1983 the Federal 
motor fuels tax was increased by 5 cents from 4 cents per 
gallon to 9 cents per gallon. From the 5 cents per gallon of 
new revenue from that increase, 1 cent was deposited in the 
Mass Transit Account.
    Do you support the principle that public transportation 
should continue to receive not less than 20 percent of new 
revenues deposited into the Highway Trust Fund?

A.1. I support public transportation, and if confirmed, I plan 
to be an advocate for public transportation within DOT and the 
Administration. As Congress and the Administration begin 
negotiations on an infrastructure bill as well as the next 
surface transportation reauthorization, I will commit to being 
an advocate for transit during those discussions.

Q.2. Without commenting on any recent or future proposals, 
would you use the position of Administrator to urge support for 
the principle of allocating not less than 20 percent of any new 
revenue added to the Highway Trust Fund to public 
transportation?

A.2. I support public transportation, and if confirmed, I plan 
to be an advocate for public transportation within DOT and the 
Administration. If legislation is considered regarding the 
Highway Trust Fund, I will commit to advocating for transit in 
any negotiation.

Q.3. In the FY17 TIGER awards announced last month USDOT funded 
only two public transportation projects. Those public 
transportation projects received just 3.6 percent of the 
available FY17 funding, which nearly eliminated public 
transportation funding under the program despite the large 
number of transit applications that were rated highly.
    Do you believe the FY17 TIGER awards funded an appropriate 
number of public transportation projects?

A.3. Since I was not at the Department of Transportation during 
the most recent round of TIGER awards, I cannot speak to the 
merits of the projects that applied and those that were 
awarded. If confirmed, I will be an advocate for transit 
projects applying for funding through any eligible 
discretionary grant program.

Q.4. Do you believe FY17 TIGER awards allocated an appropriate 
share of funding to public transportation projects?

A.4. Since I was not at the Department of Transportation during 
the most recent round of TIGER awards, I cannot speak to the 
merits of the projects that applied and those that were 
awarded. If confirmed, I will be an advocate for transit 
projects applying for funding through any eligible 
discretionary grant program.

Q.5. Would you use the position of Administrator to urge USDOT 
to support a greater number of public transportation projects 
and a higher share of funding for transit in the recently 
announced FY18 ``BUILD'' competition?

A.5. If confirmed, I will be an advocate for transit projects 
applying for funding through any eligible discretionary grant 
program, including the BUILD program.

Q.6. The FY18 omnibus provided $2.6 billion for the Capital 
Investment Grant program and provided direction to FTA on the 
continued Administration of the program.
    Do you agree that the FY18 omnibus directs FTA and the 
Department to continue to move projects through the Capital 
Investment Grant program's process and sign new grant 
agreements?

A.6. If confirmed, I will carefully review the FY18 Omnibus and 
will commit to implementing the CIG program consistent with the 
law.

Q.7. Can you commit that you will sign full funding grant 
agreements as soon as New Starts and Core Capacity projects 
meet the statutory requirements for such projects.

A.7. If confirmed, I can commit to implementing the CIG program 
in accordance with the law. As proposed projects become ready 
for a funding agreement commitment, FTA will consider each 
project on its own merits and will advance them through the 
process as appropriate and consistent with legal requirements.

Q.8. Do you agree that full funding grant agreements, as 
established in 49 U.S.C. 5309, are designed to be executed 
before all appropriations for a project have been made 
available by Congress?

A.8. The President's FY19 Budget requested funding for existing 
full funding grant agreements (FFGAs) requiring additional 
appropriations. Under the law, FTA is authorized to execute an 
FFGA prior to all appropriations being made available by 
Congress.

Q.9. Do you agree that delays in signing grant agreements for 
all types of projects (New Starts, Core Capacity, Small Starts) 
often result in cost escalation for project sponsors?

A.9. I support the President's goal of expediting delivery for 
all transportation projects. That being said, I believe it is 
the responsibility of the FTA Administrator to make certain 
that CIG projects are thoroughly reviewed before Federal 
dollars are committed.

Q.10. Do you believe that project budgets under the CIG program 
are sensitive to delays that occur when project is ready for a 
grant agreement, i.e., the project has met all statutory 
requirements, which occurs late in the project development 
process?

A.10. Having worked on transit projects at the State and local 
levels, I do believe that project budgets are sensitive to 
delays, but I also believe that it is the responsibility of the 
FTA Administrator to make certain that CIG projects are 
thoroughly reviewed before taxpayer dollars are committed.

Q.11. The FAST Act established the ``Expedited project delivery 
for capital investment grants pilot program'' (Section 3005(b)) 
to test new means of projects delivery, but FTA has not 
solicited projects under the pilot, issued guidance or provided 
other means for interested applicants to develop applications 
under the pilot.
    If confirmed, will you work to implement the pilot program 
as authorized, including the requirement concerning the 
operation of the project by an existing provider of fixed 
guideway or bus rapid transit public transportation in the 
service area of the project?

A.11. If confirmed, I will implement all programs consistent 
with the law, and innovative project delivery is a priority 
across DOT.

Q.12. Would you take measures to ensure that potential 
applicants are aware of the program and can apply under the 
pilot?

A.12. If confirmed, I will take measures to ensure that 
potential applicants are aware of the program and can apply 
under the pilot.

Q.13. If responding in the affirmative, what measures would you 
take?

A.13. If confirmed, I will review what steps have already been 
taken by FTA to make applicants aware of the program and 
determine if there are any interested project sponsors. I will 
make sure that FTA continues to work with these project 
sponsors as well as any others to administer the pilot program. 
In addition, I would explore options for informing the industry 
of their option to apply through the pilot program.

Q.14. What are your priorities for safety oversight?

A.14. Safety is my top priority, and my first safety priority, 
should I be confirmed, will be the certification of the State 
Safety Oversight (SSO) Programs for the States that still must 
receive certification by April 15, 2019. If a State does not 
meet that deadline, FTA must withhold all transit funding until 
certification is achieved.

Q.15. If confirmed, would you manage FTA's safety oversight 
activities without regard to political considerations?

A.15. Yes, if confirmed I would absolutely manage FTA's safety 
oversight activities without regard to political 
considerations.

Q.16. The FAST Act added ``minimum safety standards to ensure 
the operation of public transportation systems'' as an explicit 
element of the National Public Transportation Safety Plan. The 
law also directed FTA to complete a review of existing safety 
standards, which has been completed, but FTA's subsequent 
efforts to improve or issue new safety standards have been very 
limited.
    If confirmed, will you be proactive in using your authority 
to improve safety standards in the public transportation 
industry?

A.16. I believe safety standards can be a helpful tool for 
public transportation agencies and their State safety oversight 
bodies as they work to improve their safety practices. However, 
having personal experience overseeing many transit operators 
throughout Virginia--large and small, urban and rural--I know 
that local variation among transit systems means that a ``one 
size fits all'' would not be suitable. Therefore, I would seek 
to strike the appropriate balance between national safety 
standards and local flexibility.

Q.17. As State Safety Oversight Agencies (SSOAs) seek 
certification, they are not being required to conduct regular, 
unannounced inspections as they ramp up their oversight. GAO 
recently noted the need for inspections and guidance from FTA 
on inspection practices.
    After further review of safety oversight practices, do you 
believe that inspections, particularly unannounced inspections, 
are a core element of an oversight program?

A.17. I believe that inspections play an important role for 
rail transit safety. If confirmed, I will work with the transit 
industry and the FTA Office of Transit Safety and Oversight to 
determine the proper requirements for SSOAs with regard to 
regular and unannounced inspections.

Q.18. The FAST Act created the Pilot Program for Innovative 
Coordinated Access and Mobility (ICAM, Sec. 3006(b)) to fund 
projects that improve the coordination of transportation 
services and nonemergency medical transportation services. The 
law also directed the Coordinating Council on Access and 
Mobility (CCAM) to pursue specific activities that foster 
coordination.
    Will you commit to work expeditiously to advance further 
rounds of funding under the ICAM pilot program?

A.18. If confirmed, I will work to implement all requirements 
of the law as expeditiously as possible.

Q.19. Will you support the work of the Coordinating Council on 
Access and Mobility (CCAM) and utilize findings from the pilot 
program (ICAM) to implement strategies that promote 
coordination between Federal agencies that support 
transportation services?

A.19. If confirmed, I will support the work of the CCAM and 
utilize findings from the pilot program to implement strategies 
that promote coordination between Federal agencies that support 
transportation services. I know from my work in Norfolk, VA, 
the importance of coordination among a multitude of 
transportation providers.

Q.20. In your testimony, you stated that ``preparing for the 
future through innovation'' was one of your top priorities.
    If confirmed as Administrator, how would you take action on 
that priority?

A.20. It is an exciting time in public transportation, with 
many new technologies and service delivery models available. If 
confirmed as Administrator, I would build on efforts underway 
at FTA and throughout the industry to ensure technologies are 
utilized to improve safety, reliability, and efficiency for 
transit riders and employees. Specifically, I would work with 
the Department to continue to explore Automated Vehicle 
technology in transit, which has the potential to significantly 
improve safety.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR HELLER
                       FROM THELMA DRAKE

Q.1. I would like to extend a formal invitation to you to visit 
Nevada this year if you have the opportunity. Our Regional 
Transportation Commissions in both the north and the south 
would be happy to showcase their amazing work. Washoe RTC is 
working through some innovative options for connecting Reno 
with our new industrial complex that hosts Tesla, Switch, and 
other tech companies. They also have a great project to connect 
our growing downtown with the University of Nevada, Reno.
    Our Southern Nevada RTC Director Tina Quigley has coined 
the phrase: technology is the new asphalt, and Las Vegas is a 
great example of that. They are using innovative technologies 
to transform transit in the region and increase safety and 
convenience.
    A lot of their successes are due to the Capital Investment 
Grant Program. It has been critical to our Regional 
Transportation Commissions and their efforts to expand 
transportation options that will create job growth, 
competitiveness, and new opportunities for residents.
    Are you supportive of continuing this transit program?

A.1. If confirmed, I will always support the law and will 
implement the CIG program consistent with the law.

Q.2. As Congress considers an infrastructure package, what role 
should transit play in that proposal?

A.2. Transit is a key component of the Nation's transportation 
network, and if confirmed, I look forward to working with 
Congress, the Administration and stakeholders on furthering the 
Administration's Infrastructure Proposal. Transit projects 
would certainly be eligible to compete for funding through the 
Administration's proposed infrastructure grant programs.
    ADDITIONAL NOTE: I will commit to coming to Nevada this 
year if I am confirmed.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
               SENATOR MENENDEZ FROM THELMA DRAKE

Q.1. Yes or no, is the Gateway Project nationally important?

A.1. The projects making up the Gateway program are important 
to the region and have impacts across multiple States.

Q.2. For a New Starts or Core Capacity project, what is the 
minimum percentage of the total project cost that the local 
sponsor needs to commit of their own funding to earn a Medium 
rating? Please provide a percentage.

A.2. Each project in the CIG program is unique and must be 
considered on its own merits. As I have not been involved in 
FTA's evaluation and rating process for CIG projects, I cannot 
provide an answer in such detail. However, I would note that 
the overall rating is contingent on many factors, not solely 
the local financial share.

Q.3. Yes or no, if confirmed, would you comply with a request 
made by anyone in the Department of Transportation, the White 
House, or anywhere in the Executive Branch that you or the 
staff at FTA reject, downgrade, delay, or provide a low rating 
to a Capital Investment Grants application for political 
reasons?

A.3. No, I would not comply with such a request. I would 
administer the CIG program and all FTA programs in accordance 
with the law.

Q.4. Amtrak has stated that they likely will be required to 
shut down the Hudson River Tunnels sometime in the next 15 or 
20 years, because at some point they'll become unsafe for 
passenger travel.
    If DOT continues to block our efforts to replace those 
tunnels, will you develop an emergency plan for dealing with 
the 200,000 daily Hudson River Tunnel riders that would need to 
find another way to get to their destination?

A.4. If confirmed, I will always prioritize the safety of 
passengers utilizing transit as their mode of travel. If any 
transit system throughout the Nation becomes unsafe for travel, 
I will work with State and local governments as well as the 
transit agency to address the situation in a safe and effective 
way.

Q.5. The Department of Transportation's 2015 ``Status of the 
Nation's Highways, Bridges, and Transit: Conditions and 
Performance'' report found an $89.9 billion transit state of 
good repair backlog.
    What do you believe is the primary driver of that backlog?

A.5. The maintenance backlog in transit has been a problem that 
has developed over many decades. The primary driver, in my 
view, is a lack of appreciation for the need to plan for the 
maintenance and replacement costs of transit assets well in 
advance.

Q.6. Do you believe this backlog can be addressed without 
additional Federal funding?

A.6. FTA's authorized programs include billions of dollars in 
formula funding for transit agencies to address their capital 
and state of good repair needs. Tackling the maintenance 
backlog will require sustained effort at the Federal, State, 
and local government levels.

Q.7. Fully half of the funding in the President's 
infrastructure proposal goes to an ``infrastructure 
incentives'' program that has a 20 percent Federal share, 
compared with the 80 percent Federal share common in transit 
programs.
    Do you believe a 20 percent Federal share is appropriate 
for transit projects?

A.7. To my understanding the President's incentive program is 
new and additional funding, not intended to replace or 
establish a new Federal-local cost sharing arrangement. While I 
was not at the Department during the drafting of the 
Administration's Infrastructure Proposal, it's my understanding 
that the proposal aims to address significant infrastructure 
needs across the Nation, including by partnering with State and 
local governments. Many State and local projects sponsors have 
already shown the ability to generate resources through 
innovative financing, public-private partnerships, and/or 
securing additional local revenue streams.

Q.8. Do you agree with the President's budget proposal to phase 
out the Capital Investment Grants program?

A.8. I believe the Administration's Infrastructure Proposal, 
which seeks to leverage Federal investments so that more 
projects can be developed at the State and local level in a 
more streamlined timeframe, is the appropriate avenue to 
consider funding for many projects currently under 
consideration in the CIG program. That said, I recognize that 
the CIG program is authorized and appropriated in law and I 
will always follow the law if I am confirmed as Administrator.

Q.9. In the most recent round of TIGER grants, less than 4 
percent of the overall funds were allocated to projects in 
which transit was the sole or central component.
    Is this a sufficient amount?

A.9. Since I was not at the Department of Transportation during 
the most recent round of TIGER awards, I cannot speak to the 
merits of the projects that applied and those that were 
awarded. If confirmed, I will be an advocate for transit 
projects applying for funding through any eligible 
discretionary grant program.

Q.10. Will you advocate with Secretary Chao to increase that 
amount in the future, including under the recently rebranded 
BUILD grants program?

A.10. If confirmed, I will be an advocate for transit projects 
applying for funding through any eligible discretionary grant 
program, including the BUILD program.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR CORTEZ MASTO FROM THELMA DRAKE

Q.1. Ms. Drake--should you be confirmed, I personally invite 
you to come see what we have going on in Nevada. As we've 
discussed, technology and innovation present a real opportunity 
for increased safety, efficiency, and overall quality of life 
for many American. I really think it would be helpful for you 
to see our challenges and opportunities first hand.
    Can you commit to coming to Nevada within the first year 
following your confirmation?

A.1. Yes, I would be happy to come to Nevada within the first 
year following confirmation.

Q.2. I'm deeply concerned about the haphazard way the 
Administration's infrastructure proposal was put together, and 
that--if you were truly interested in putting forth a serious, 
bipartisan infrastructure proposal--there wouldn't be such 
obvious concerns. My appreciation is that the Administration 
didn't work in concert with any congressional Democrats on our 
ideas or perspectives. For instance, in my outreach with local 
transportation stakeholders, they noted ``Many of the 
requirements and changes [in the proposal] would probably 
require extensive and difficult revisions to State laws for the 
RTC to fully utilize them. Examples: tolling and use of toll 
revenues, transit-related value capture, etc.''
    Are you concerned that I'm hearing from Nevadans that the 
Administration's proposal conflicts with local laws?

A.2. I am concerned with any obstacles to implementing the 
Administration's Infrastructure Proposal. If confirmed, I look 
forward to working with Congress on issues of critical 
importance to our infrastructure. I would note that many 
transit agencies already undertake activities that could be 
considered ``value capture.'' If confirmed as Administrator, I 
would work to help inform the industry as to how they can 
productively leverage both new and existing assets and 
services.

Q.3. Are you aware if Sec. Chao has broad infrastructure 
stakeholder support, like that of labor unions, State DOTs, or 
transit agencies for the Administration's proposal?

A.3. Since I am not at the Department of Transportation, I 
cannot speak to current status of stakeholder support for the 
Administration Infrastructure Proposal.

Q.4. What was your reaction from the perspective of your 
current job with the city of Norfolk, and what was the Mayor 
and the communities perspective on the proposal?

A.4. Norfolk, like many other cities around the Nation, has 
many infrastructure needs and my city appreciates the 
Administration's focus on infrastructure. Specifically, I 
believe that the increased flexibility offered through the 
infrastructure proposal will empower States and localities to 
use the knowledge of their own communities to best further 
critical infrastructure projects.

Q.5. As we discussed, one of my priorities is getting funding 
for the Virginia Street RAPID Extension in Reno. This project 
has a 50 percent local match and is rated ``medium high''. It 
is my understanding that normally, a project with this type of 
match and rating would be a certainty for funding and a full 
funding grant agreement.
    Regardless of what you do or don't know of the FTA's review 
of this project, can you agree that a 50 percent match from a 
locality is significant ``skin in the game'' as Secretary Chao 
often states?

A.5. Projects sponsors should be aware that the CIG program has 
never offered a guarantee of Federal funding to applicants. 
Projects must meet the applicable statutory and readiness 
requirements to be considered for a construction grant 
agreement. I do believe that the cost to build CIG projects 
such as the Virginia Street RAPID in Reno should be 
appropriately shared among the Federal Government and the local 
communities that they serve. While I cannot comment further on 
this project specifically, I can commit to giving each and 
every project fair consideration in accordance with the law.

Q.6. On the transportation innovation topic we've discussed, 
one area I think Federal funding should be considered is for 
``transformative'' projects in the areas of electric bus 
propulsion and autonomous vehicles, including funding research 
to address the deployment issues for these types of projects. 
One potential concept is adding ``bonus'' points to bus rapid 
transit Capital Investment Grant (CIG) projects that use 
autonomous technologies.
    Given these opportunities, can I again confirm your support 
of the development of autonomous transit technologies?

A.6. Yes, I believe automated transit vehicle technology has 
the potential to generate significant improvements to safety 
and service.

Q.7. And can you provide me your thoughts on whether you would 
support this concept of rewarding projects in the CIG program 
who utilized innovative technologies?

A.7. The CIG program has many specific evaluation criteria that 
are established in statute. I would have to further study the 
details of the program's administration to better answer your 
question. I can commit that, if confirmed as Administrator, I 
would certainly explore the different avenues available to 
encourage responsible innovation in transit projects.

Q.8. Along those same lines, I would also be interested in you 
looking at innovative partnerships and ``alliances'' between 
the private sector, public sector, universities, and even 
international interests in advancing design, deployment and 
operation of autonomous vehicles and coordination for smart 
communities. The University of Nevada at Reno's efforts to 
conduct research are becoming global in reach and are helping 
us have a deeper understanding of the engineering issues but 
also the business, finance, and deployment issues.
    Do you believe and intend to advocate for these kinds of 
partnerships during your potential service at USDOT, and do you 
think that this is a concept that could be considered within 
the University Transportation Center (UTC) function at USDOT, 
or some other outlet directly within the FTA?

A.8. I believe that public-private partnerships hold much 
promise for researching and deployment innovative technologies 
in public transportation. It is my understanding that FTA's 
research programs do currently involve partnerships with 
universities and research consortia. If confirmed, I would be 
happy to work with your office on how best to incorporate new 
developments from throughout the industry.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR JONES
                       FROM THELMA DRAKE

Q.1. An issue that is important to workers in Alabama are Buy 
America requirements, and I know the President has made this a 
priority of his as well. Current law goes into great detail 
about Buy America requirements for traditional diesel busses, 
but for newer technology like the electric busses they make in 
Northern Alabama, there is less detail.
    If you are confirmed, will FTA work to implement strong Buy 
America standards for these new technologies?

A.1. Yes, if confirmed I will work to implement Buy America 
standards required by law and any Executive Orders broadly.

Q.2. Birmingham-Jefferson County Transit Authority recently 
received $3.6 million to help improve their bus systems. For a 
city like Birmingham, a modern bus system is critical to both 
residents and to visitors--especially as the city prepares to 
host the ``World Games'' in 2021. This funding was through the 
FTA's Bus & Bus Facilities Infrastructure Investment Program. 
And while Birmingham got dollars this time around, the program 
has 10 times as many requests than it can fund.
    If confirmed, will you commit to maintaining funding for 
bus and bus facilities improvements?

A.2. If confirmed, I commit to carrying out FTA's programs in 
accordance with the law and the appropriations provided by 
Congress.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                      FROM JEFFREY NADANER

Q.1. As Assistant Secretary for enforcement, you would be 
charged with protecting U.S. national security, foreign policy, 
and economic interests by enforcing laws on sensitive exports 
to hostile actors or those that engage in onward proliferation; 
prohibited foreign boycotts; and related laws.
    What would be your major priorities in this role for the 
next several years?

A.1. If confirmed, my major priority will be the aggressive 
enforcement of the Export Administration Regulations: that is, 
to halt illegal transfers of dual-use U.S.-origin 
technologies--including to U.S. adversaries and to countries in 
contravention of U.S. sanctions and embargos; interrupt exports 
that contribute to weapons of mass destruction proliferation or 
destabilizing military modernization activities; prevent 
illicit procurements by terrorists and terrorist-supporting 
countries; and stop unlawful compliance with foreign country 
imposed or fostered restrictive trade practices against any 
country friendly to the United States. Key to achieving these 
goals will be expanding our partnerships with U.S. industry and 
universities, other Government agencies, and our international 
allies and partners.
    Mr. Nadaner, last month the New York Times ran an article 
(``Smuggling of U.S. Technology Is Outpacing Cold War Levels, 
Experts Say'', by Ron Nixon, New York Times, March 17, 2018) on 
an increase in smuggling of sensitive military technologies to 
adversaries like China, Russia, North Korea, and Iran. The 
article noted that such smuggling had outpaced even Cold War 
levels, and said U.S. military contractors and tech companies 
had observed a ten-fold increase in suspicious inquiries 
related to weapons and technology purchases from overseas. It 
also quoted one expert as noting that despite the take-down of 
some technology smuggling networks, U.S. authorities remain 
``outgunned'' on this front.

Q.2. How would you crack down on these smuggling networks, and 
do you believe you will have sufficient legal authorities and 
resources to do it?

A.2. One of my earliest tasks, if confirmed, will be ensuring 
that current Export Enforcement authorities and resources are 
most effectively focused on the pressing threats to U.S. 
national security. Central to intensifying enforcement against 
smuggling networks will be making certain that information 
flows with other departments and agencies, the intelligence 
community, foreign allies and partners, and U.S. industry and 
that end-use checks and investigations are occurring to the 
maximum extent feasible. I will aim for highly efficient (a) 
harnessing of such information, (b) combining of interagency 
and international efforts, and (c) using of BIS unique tools--
such as the Entity List, end-use checks, temporary denial 
orders, and administrative and criminal penalties--to identify 
and dismantle illicit networks. Among my other first tasks, if 
confirmed, will be to assess the match among legal 
responsibilities, authorities, and resources. I will then work 
with the Secretary of Commerce, the Office of Management and 
Budget, and the Congress on future resource priorities and 
requirements with the goal of ensuring that Export Enforcement 
operations keep pace with the changing tactics of our 
adversaries.

Q.3. I am also concerned about the transfer of critical 
technologies like artificial intelligence, nanotechnology, 
cyber, electronic warfare technologies and others to our 
adversaries through commercial transactions.
    In your experience, should we be concerned that the 
transfer of critical technologies to our adversaries through 
business transactions like joint ventures is a national 
security threat?
    If confirmed, what would you do to address these concerns, 
and do you believe you will have sufficient legal authorities 
and resources to do so?

A.3. If confirmed, I will ensure that Export Enforcement 
efforts are focused on all facets of illicit technology 
transfer: not solely exports of proscribed technology from the 
United States and deemed exports to foreign nationals in the 
United States, but also exports of sensitive technology as a 
result of a foreign person's investment in, acquisition of, 
joint venture in, or partnership with a U.S. company. 
Protecting the knowledge of how to build an item can be as 
important to U.S. national security as the transfer of the item 
itself. I will (a) use all BIS authorities, tools, and 
resources to prevent, stop and deter illicit transfer, 
regardless of conduit, of technology subject to the Export 
Administration Regulations, and (b) work closely with the 
Secretary of Commerce, the Office of Management and Budget, and 
the Congress to assess future authority and resource 
requirements to ensure Export Enforcement operations protect 
U.S. technology from unlawful export.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                      FROM JEFFREY NADANER

Q.1. In light of strong U.S. economic growth and record 
unemployment, I have concerns that the recently imposed Section 
232 tariffs on imported steel and aluminum products will have a 
detrimental impact to businesses, manufacturers, and most 
importantly, consumers. These taxes will likely increase 
production costs, jeopardize job creation, and reduce the 
purchasing power of American consumers. With that said, I am 
encouraged that the Department of Commerce has established a 
product-specific exclusion process whereby the Department can 
provide tariff relief for U.S. businesses using steel or 
aluminum products that are not adequately sourced in the United 
States. However, the Department has reviewed and posted only a 
fraction of received exclusion petitions, and the petition 
process, as proposed, requires businesses to commit a 
significant amount of staff time and resources to complete each 
individual petition, in many instances at a minute level of 
detail. Reforms to both the exclusion petition and the review 
process are clearly needed.
    I understand that the Office of Export Enforcement does not 
have direct oversight over the product-specific exclusion 
process; however, the office will play a supporting role in 
this process as a subdivision of the Bureau of Industry and 
Security (BIS).
    If confirmed, how will you work with other offices at BIS 
to prioritize the review and approval of the Section 232 
exclusion petitions for steel and aluminum products? How do you 
intend to devote the necessary staff and resources to complete 
this process in an expedited manner?

A.1. The President acted under Section 232 to adjust imports of 
aluminum and steel after concurring with the Secretary of 
Commerce's findings that aluminum and steel articles were being 
imported into the United States in such quantities and 
circumstances as to threaten to U.S. national security. The 
President has also directed the Secretary of Commerce, in 
consultation with other Administration officials, to evaluate 
exclusion requests for products, taking into account national 
security considerations. Section 232 authority is administered 
by the Commerce Department's BIS Office of Export 
Administration, which is led by the Senate-confirmed Assistant 
Secretary of Commerce for Export Administration and which is 
separate and distinct from the BIS Office of Export 
Enforcement. It is my understanding that the Assistant 
Secretary of Commerce for Export Enforcement and related Office 
of Export Enforcement neither administer Section 232 authority, 
nor the process involving Section 232 exclusion petitions.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SASSE
                      FROM JEFFREY NADANER

Q.1. How will you approach cybersecurity issues during your 
tenure?

A.1. If confirmed, I will aggressively enforce violations of 
the Export Administration Regulations, including illicit 
technology transfer as a result of cybersecurity breaches and 
exfiltrations. A key enabler for U.S. success will be expanding 
partnerships with U.S. industry, academia, the intelligence 
community, law enforcement partners, other departments and 
agencies, and our international allies to identify, disrupt, 
and penalize perpetrators, while expanding action to mitigate 
the effects of cyber-enabled crime.

Q.2. How will you ensure that the United States fairly enforces 
our trade laws, without transforming enforcement actions into a 
vehicle for advancing protectionism?

A.2. The purpose of the Export Administration Regulations is to 
stop the illegal export of sensitive dual-use American 
technologies, not to engage in protectionism. If confirmed, I 
will not use enforcement for protectionist purposes.

Q.3. In my questions for the record for now-Federal Reserve 
Chairman Jerome Powell's November 28th, 2017, confirmation 
hearing, I asked now-Chairman Powell if the measure of the 
U.S.'s trade deficit with another country (the bilateral trade 
deficit) was ``a useful metric to consult to evaluate whether 
trade with that country hurts or helps our economy.'' In 
response, now-Chairman Powell said:

        The overall U.S. trade balance is the most useful 
        measure for evaluating the impact of trade on the U.S. 
        economy. That balance is affected by many factors, 
        including savings and investment in the United States, 
        economic conditions abroad, and movements in exchange 
        rates. Bilateral trade deficits are less informative. 
        For example, U.S. workers and businesses could benefit 
        when the United States runs a deficit with one country 
        by importing goods that we use as inputs to produce 
        goods to sell to another country. In this example, a 
        focus on the bilateral deficit would obscure the net 
        effect on the U.S. trade balance and the overall 
        benefit to the economy.

    Do you agree with Chairman Powell that ``[b]ilateral trade 
deficits are less informative?''
    Is free trade always a net-gain for the U.S. economy? If 
not, under what circumstances is it a net-loss?

A.3. President Trump and Secretary Ross have made it a priority 
to pursue trade policies and agreements that are fair for all 
Americans. As a nominee, I am not privy to Administration 
negotiations or deliberations on the overall trade balance or 
bilateral trade deficits. Nor, if confirmed in the role of 
Assistant Secretary for Export Enforcement, would I have a role 
in those deliberations. I am committed, if confirmed, to 
enforce the Export Administration Regulations, which are vital 
to stopping illegal transfers of sensitive dual-use 
technologies, and conveyance to countries and parties under 
U.S. sanctions.

Q.4. Is there any instance where the U.S. would benefit from a 
trade war with a large country like China?

A.4. The enforcement of export control rules is strictly 
focused on (a) stopping the illicit transfer of U.S. sensitive 
dual-use technologies, (b) the breach of legal U.S. sanctions 
on sanctioned countries and parties, and (c) halting unlawful 
cooperation of illegal boycotts against countries friendly to 
the United States. If confirmed, I will ensure that the 
activities of Export Enforcement are singularly dedicated 
toward those duties in rigorous compliance with the Export 
Administration Regulations.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR MENENDEZ FROM JEFFREY NADANER

Q.1. I understand that the Administration wants to transfer 
control of the export licensing of lethal semiautomatic weapons 
and sniper rifles from the jurisdiction of the Department of 
State to the Commerce Department, apparently in the belief that 
these dangerous weapons have somehow become less harmful. This 
move would not only subject these lethal weapons to less-
stringent Commerce controls, but also conveniently remove them 
from being subject to Congressional review and disapproval--
despite Congress's action in 2002 to subject them to greater 
oversight than tanks and aircraft. You may argue that State 
will still be able to intervene in proposed exports through an 
interagency review process; to that I point out that State also 
proposed the sale of 27,000 assault weapons to the Philippine 
national police--who are conducting summary executions in the 
streets--and semiautomatic pistols to the same Turkish thugs 
who beat peaceful protestors in Washington last year--both of 
which were stopped only by the action of the Ranking Member of 
the Senate Foreign Relations Committee, so I'm not reassured 
that State will intervene, or that Commerce will more plainly 
see the foreign policy problems in such sales.
    Do you believe that these weapons, which are much more 
likely to be misused--including being susceptible for transfer 
to terrorist and criminal networks--need to be subject to less-
stringent export requirements, in law and in regulation, than 
other lethal arms on the U.S. Munitions List?

A.1. It is my understanding that export licensing reform 
involving transfers of some technology controls between the 
State and Commerce Departments is the result of deliberations 
made by this Administration and the previous one. As a nominee, 
I have not been made privy to decisions, deliberations, or 
control plans for such items if transferred to the Commerce 
Control List. If such a transfer were to occur, licensing for 
any exports would, under the law, be under the jurisdiction of 
the Assistant Secretary of Commerce for Export Administration, 
rather than the Assistant Secretary for Export Enforcement. If 
confirmed, should any of the subject items be transferred to 
the Commerce Control List, I promise to enforce the law 
aggressively and firmly against illegal exports. I will bring 
the unique Commerce resources of export enforcement, including 
the Entity List, Temporary Denial Orders, expert Special Agents 
and enforcement analysts, and criminal and administrative 
penalties, to bear in full force. In addition, I will continue 
to work with the Federal Bureau of Investigation and Department 
of Homeland Security, which will continue to have authority to 
investigate illegal activities involving Category I-III items.

Q.2. Since this transfer will remove these items from the AECA 
statutory Congressional review process, including the informal 
review processes, do you also believe that less Congressional 
oversight over the export of these weapons is justified? If 
confirmed, will you inform this Committee whenever a license 
for the export of these arms transferred from State, at the $1 
million statutory threshold, is being considered?

A.2. I am aware of the Congressional notification threshold 
under the International Traffic in Arms Regulations. I 
understand that any potential transfer of Categories I-III from 
the USML to the CCL has been undergoing interagency review. As 
a nominee, I have not been privy to those internal 
deliberations regarding any proposed rule or the status of any 
Congressional notification. However, if confirmed, I am 
committed to working with the Congress on these important 
issues.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR CORTEZ MASTO FROM JEFFREY NADANER

Q.1. If confirmed as Assistant Secretary, you will be 
responsible to uphold the mission of the Department of 
Commerce--``to foster, promote, and develop the foreign and 
domestic commerce'' and furthermore to foster, serve, and 
promote the Nation's economic development and technological 
advancement of the United States. Of my State's $9.7 million in 
exports, nearly one-fifth of that is to Canada and Mexico--our 
partners in NAFTA.
    If confirmed to Secretary of Commerce for Export 
Enforcement, how do you anticipate the Administration's efforts 
to renegotiate NAFTA impacting your role and responsibilities? 
Does the President's rhetoric on trade concern you? Please 
discuss your position on this Administration's renegotiation of 
NAFTA.

A.1. I understand that, under the Secretary of Commerce and by 
law, the International Trade Administration (ITA), with its 
separately authorized and confirmed Under Secretary of 
International Trade, holds the legal responsibility within the 
Department for trade agreements and negotiations such as NAFTA. 
The Bureau of Industry and Security Export Enforcement headed 
by the Assistant Secretary of Commerce for Export Enforcement, 
in contrast, is a distinct law enforcement agency exclusively 
dedicated to preventing and stopping the illegal export of 
controlled, sensitive items. If confirmed and a matter involves 
the U.S. Export Administrative Regulations designed to stop 
such dangerous transfers, I am committed to working with any 
pertinent departments or agencies, including ITA and the United 
States Trade Representative (USTR), to enforce the law against 
violators.

Q.2. Your role as Assistant Secretary focuses on the export and 
re-export of commercial commodities and technology--one of my 
State's top exports to NAFTA participants are semiconductors, 
electrical equipment, and communications equipment.
    How do you anticipate NAFTA's renegotiation affecting 
States like mine that export primarily commercial commodities 
and technology?

A.2. As a nominee, I am not privy to the internal deliberations 
or specifics of the NAFTA negotiations. If confirmed in the 
nominated role of Assistant Secretary of Commerce for Export 
Enforcement responsible for Bureau of Industry and Security 
Export Enforcement, I will not possess authority with respect 
to those negotiations or deliberations. If confirmed, I will 
work closely with the ITA, USTR, and Congress to enforce U.S. 
laws against illegal export of controlled sensitive 
technologies.

Q.3. In Nevada, 22,472 workers are employed in industries that 
use steel and aluminum.
    How do you anticipate the implementation of steel tariffs 
affecting our national security, foreign policy, and economic 
objectives?

A.3. The President acted under Section 232 to adjust imports of 
aluminum and steel after concurring with the Secretary of 
Commerce's findings that aluminum and steel articles were being 
imported into the United States in such quantities and 
circumstances as to threaten to U.S. national security. Section 
232 authority is administered by the Commerce Department's BIS 
Office of Export Administration, which is led by the Senate-
confirmed Assistant Secretary of Commerce for Export 
Administration, and which is separate and distinct from the BIS 
Office of Export Enforcement. It is my understanding that the 
Assistant Secretary of Commerce for Export Enforcement and 
related Office of Export Enforcement does not administer 
Section 232 authority.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                       FROM SETH APPLETON

Q.1. You mentioned that you would be interested in doing more 
research on tracking what happens to families who leave HUD 
assistance.
    Do HUD's tenant characteristics reporting systems currently 
contain data fields to capture the reasons why assisted 
families leave HUD assistance?

A.1. HUD's Multifamily programs (PBRA, 202, 811) collect a 
limited set of information on why households leave a unit but 
the systems for the PHA operated programs (Public Housing, 
Housing Choice Vouchers) do not.

Q.2. If not, how do you propose to build this tracking 
capability?

A.2. I think there are three paths that we can pursue 
simultaneously. In the shortest run, we can use tenant income 
trajectory (data from recertifications prior to exit) as a 
means to estimate likelihood that exits were positive. A middle 
path will be to build off the data matching agreements HUD's 
Office of Policy Development and Research (PDR) has already 
established with the Census Bureau and other agencies to see 
the characteristics of recent leavers; for example, employment 
data that the Census Bureau collects from State agencies. The 
third is to investigate the feasibility of updating HUD's forms 
to better capture reasons for exit. However, there could be 
significant reporting burdens for housing providers associated 
with richer varieties of exit data. Another option may be to 
conduct an evaluation that includes a one-time leaver survey; 
that could tell us a lot about what we don't know at present 
and how best to update systems.

Q.3. How do you propose to track and measure self-sufficiency 
outcomes among families who leave HUD-assisted housing?

A.3. PDR has already developed a data sharing agreement with 
the Department of Health and Human Services' National Directory 
of New Hires to assess income change for tenants participating 
in the Family Self-Sufficiency program. I hope to expand and 
improve on these important data matching partnerships.

Q.4. The FY2016 Consolidated Appropriations Act authorized the 
expansion of the MTW Demonstration to an additional 100 
agencies and required the rigorous evaluation of demonstration 
outcomes.
    With regard to HUD's evaluation of the expanded 
demonstration, please provide an overview of HUD's evaluation 
plan and expected timeline for initiation and conduct of the 
evaluation.

A.4. In addition to authorizing expansion, Congress has 
provided PDR $10 million in research funding to support the 
rigorous evaluation. The Appropriations Act of 2016 required 
HUD to create a research advisory committee that has provided 
extremely valuable advice on what should be studied and how. My 
understanding is that the research PDR has scoped out and will 
be procuring shortly would initially establish rigorous random 
assignment protocols to two cohorts, the first a study of the 
impacts of providing MTW flexibility to small PHAs, the second 
a study of alternative rent structures, likely tiered rents and 
stepped rents.

Q.5. If confirmed, will you commit to conducting rigorous 
research of the MTW demonstration?

A.5. Yes.

Q.6. HUD's 2017 update to the Research Roadmap discusses new 
research that can be conducted through the matching of 
administrative data between HUD and other Federal agencies. 
While this research can provide valuable insights into the uses 
of HUD programs and assistance, it also opens up the potential 
for HUD-assisted families' private data to be accidentally or 
intentionally released.
    If confirmed, will you work to protect the privacy of HUD-
assisted families' personal information?

A.6. Yes, this is very important. Any data matching will be 
done to carefully protect the privacy of HUD-assisted families. 
The matching is for research only and will be aggregated so 
that no individual household or person would be identified or 
impacted by the match. HUD's formal data matching agreements 
with Federal statistical agencies ensure that their rigorous 
privacy protection systems apply to the linked data being used 
by researchers.

Q.7. HUD has proposed to conduct an evaluation of EnVision 
Centers. As I understand it, EnVision Centers will build off of 
existing HUD place-based investments. The Advanced Notice of 
EnVision Center Demonstration states that ``communities should 
be currently participating in one or more Federal place-based 
initiatives'', such as Promise Zones. The Choice Neighborhoods 
Initiative also offers comprehensive neighborhood 
revitalization strategies that involve public and private 
partners across many sectors, such as education and health. In 
addition, many housing authorities have operated or facilitated 
community centers and social service hubs, although funding for 
such services have been limited by underfunding of the 
Operating Fund and Section 8 Administrative Fees.
    If confirmed, how would you isolate the effect of EnVision 
Centers from the effect of the underlying place-based strategy 
or existing community service hubs in order to measure its 
effectiveness?

A.7. If I am confirmed, and Congress provides HUD the authority 
to spend resources on an evaluation, I would ask PDR to 
evaluate EnVision Centers as it has evaluated other programs. 
The initial evaluation would be a process evaluation. This 
would be followed by an outcome evaluation. If feasible we 
might pursue more rigorous methods. I would look for guidance 
from the PDR staff and other researchers to design the most 
effective research strategy.

Q.8. In your written and oral testimony, you have committed to 
pursuing evidence-based policy during your tenure at HUD.
    Given that, how will you approach situations in which the 
Administration directs HUD to propose or implement certain 
policies, such as the deep budget cuts proposed in HUD's FY2019 
budget or the recent Executive Order regarding work 
requirements in public assistance programs?

A.8. If confirmed, I am committed to using data and research to 
provide the facts to the Secretary and the Administration on 
the impact of any proposed program changes.

Q.9. You have noted your interest in long-term disaster 
recovery research. I am very concerned that FEMA disaster 
recovery assistance programs are not meeting the needs of low-
income families, particularly renters, displaced by the 2017 
hurricanes. In Ohio and other States to which families fled 
after the 2017 hurricanes, many families displaced by the 
storms are still struggling to find affordable housing in 
markets in which such housing is already scarce.
    HUD officials have stated that they are ready to administer 
Disaster Housing Assistance Program (DHAP) assistance through 
local housing authorities for these families, but FEMA has not 
yet made such assistance available to HUD.
    If confirmed, do you intend to consider the needs of, and 
barriers facing, low-income families, including renters, in 
your research of long-term disaster recovery solutions?

A.9. Yes. The loss of affordable rental housing is one of the 
unmet needs included in PDR's analysis for allocating Community 
Development Block Grant-Disaster Recovery (CDBG-DR) funds after 
a disaster. As we develop research on how we currently pursue 
disaster recovery and consider improvements, addressing the 
needs of impacted low-income families in need of affordable 
rental housing will be an early priority.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              SENATOR MENENDEZ FROM SETH APPLETON

Q.1. President Trump recently issued an executive order 
requiring HUD to identify opportunities to propose new work 
requirements on recipients of Federal housing assistance.
    I'm concerned the very premise of imposing work 
requirements on these low-income families demonstrates a major 
misunderstanding of who is actually served by these programs. 
More than half, 57 percent, of the 4.6 million households that 
receive rental assistance are elderly or disabled. Of those 
that aren't elderly or disabled, more than two-thirds are 
currently working, but they're barely scraping by. In fact, the 
typical working family that receives rental assistance is 
headed by a 38-year old mom with two kids--making only about 
$18,000 a year. \1\
---------------------------------------------------------------------------
     \1\ https://www.cbpp.org/research/housing/chart-book-employment-
and-earnings-for-households-receiving-federal-rental#section1
---------------------------------------------------------------------------
    Many face challenges finding a job that pays enough, or 
provides steady enough hours, to lift their family out of 
poverty, let alone afford housing in today's market.
    The Executive Order states, ``many of the programs designed 
to help families have instead delayed economic independence, 
perpetuated poverty, and weakened family bonds.'' In your view, 
have any of HUD's rental assistance programs ``weakened family 
bonds''? If so, how?

A.1. In my view, the income-based rent calculations of rental 
assistance programs can create disincentives to family 
formation because, when an additional person is added to a 
household, the tenant rent contribution automatically increases 
by 30 percent of their additional income.

Q.2. I appreciate what you said in your testimony about your 
fidelity to evidence-based research. Isn't the very premise of 
the Executive Order a conclusion in search of evidence?

A.2. PDR research over the years suggests that rental 
assistance as currently administered is a slight deterrent to 
increasing earnings or entering the labor force, because of the 
direct and immediate correlation between increased earnings and 
increased rent payment obligations.

Q.3. Are you familiar with the Center for Budget and Policy 
Priorities' extensive research that work requirements in 
Federal assistance programs have done little to reduce poverty, 
and in some cases, they've pushed families deeper into it?

A.3. I am familiar with CBPP's work on a number of topics, but 
your question prompted me to look into this specific research. 
Thank you for making me aware of it.

Q.4. Will you commit to incorporate this research into any 
recommendation you make to the Secretary on work requirements 
for households receiving Federal rental assistance?

A.4. I commit to including all of the known research, including 
this research, into discussions in HUD on work requirements.

Q.5. It's been 7 months since Hurricane Maria devastated the 
island of Puerto Rico. Having visited the island last year 
after the storm, it's clear to me that we need to expedite 
longer-term housing assistance, particularly for low-income 
households. We've learned from the Government's response to 
previous disasters that coordination between FEMA and HUD on 
addressing post-disaster long-term housing needs is critical. I 
know you have been involved in the Department's response thus 
far.
    In your view, is HUD equipped and ready to administer a 
Disaster Housing Assistance Program for Hurricane Maria, should 
FEMA request it?

A.5. Yes. HUD has the capability to administer a Disaster 
Housing Assistance Program (DHAP) if requested by FEMA.

Q.6. Has this been communicated to Administrator Long? If so, 
what is causing the delay?

A.6. Since these devastating hurricanes made landfall, HUD has 
been in close communication with FEMA at the leadership level 
at headquarters as well in the field about all aspects of the 
housing recovery for HUD- and non-HUD-assisted households, 
including HUD's ability to administer a rental assistance 
program if established by FEMA. While I cannot speak for FEMA, 
disaster recovery is a top priority of mine. If confirmed, I 
will be an advocate within the Administration for the 
individuals and families displaced by disasters and am 
committed to using all available tools in PDR as well as in the 
Department to help them rebuild their lives.

Q.7. Please describe what role, if any, you will have in the 
Department's implementation of the Affirmatively Furthering 
Fair Housing rule.

A.7. PDR is the home to HUD's data and geospatial mapping 
capabilities, which have been and will continue to be available 
to help grantees achieve positive fair housing outcomes.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            SENATOR CORTEZ MASTO FROM SETH APPLETON

Q.1. Nearly every community in this Nation has an affordable 
rental housing crisis. Half of renters pay more than 30 percent 
of their income for rent. It is acute in Nevada. Families 
earning about $30,000 a year are unable to find an affordable 
home; for every 100 extremely low-income families, there are 
only 15 apartments that don't cost more than \1/3\ of their 
income. Our waiting lists for public housing and Section 8 are 
in tens of thousands; families wait years for help.
    Congress provided $42 billion to HUD for FY2018.
    With that amount of funding are there any families 
CURRENTLY receiving HUD housing assistance that could lose HUD 
benefits?

A.1. To the best of my knowledge, the FY2018 funding levels are 
adequate to serve at least as many households as HUD currently 
serves and possibly more. There is turnover every year in the 
housing assistance programs, but as units turnover the funding 
appropriated is adequate to make the turnover units and 
vouchers available to other needy households on at least a one-
for-one basis on average.

Q.2. Congress provided $42 billion to HUD for FY2018. With that 
amount of funding how many new individuals or families that are 
not receiving HUD housing assistance now could receive 
assistance?

A.2. The recently enacted Appropriations Act for FY18 provides 
funding to continue to expand the number of Veterans Affairs 
Supportive Housing (VASH) vouchers as well as the number of 
households served by the Section 202 and 811 programs by 
several thousand units combined. In addition, approximately 10 
percent of existing assisted units have normal turnover each 
year, which means more than 460,000 new households are served 
each year through normal turnover.

Q.3. If some new families or individuals could receive housing 
assistance, please explain how--and for whom--those funds will 
be made available? For example, for veterans through VASH or 
for people with disabilities through the 811 program.

A.3. There are many populations that could benefit from housing 
assistance. I would welcome a discussion with Congress and 
other stakeholders to hear views on how HUD could prioritize 
the turnover units to achieve specific housing goals. PDR did a 
study a few years ago that looked at how PHAs currently 
prioritize tenants on their waiting lists. I would hope to use 
research like this to help inform the discussion.

Q.4. Is the HUD Administration requesting--or receiving--a 
recission? Will the funds Congress allocated to HUD be cut?

A.4. I have not been involved in formulating any proposals to 
rescind funds that have been appropriated to HUD. As a long-
time former Capitol Hill staffer, I understand and respect that 
the budget and appropriations process is an iterative one that 
is, in the end, decided by Congress. I commit that, if 
confirmed, I will always approach the budget process from the 
perspective of advising the Secretary and HUD leadership of the 
impacts that budget proposals would have on HUD's programs and 
the individuals, families, communities, and organizations they 
serve based on the available data and research.

Q.5. If the budget the Trump administration proposed for 2019 
was adopted into law, how many of the 5 million families HUD is 
currently serving would lose housing assistance under the 2019 
HUD proposed budget? If any, how many of those that would lose 
assistance would reside in Nevada?

A.5. The proposed FY19 funding level for HUD's housing 
assistance programs was designed so that no currently served 
households, including those in Nevada, would lose their rental 
assistance and would also allow HUD to reuse vouchers upon 
turnover. However, to achieve this would require statutory 
changes in how rents are calculated for non-elderly nondisabled 
households.
    There is ongoing research being conducted right now by PDR 
into the effects of alternative rent structures as part of 
HUD's Rent Reform Demonstration. Further testing on alternative 
rents will be looked at as part of the MTW expansion. This 
research should yield important data and findings on the 
impacts of the tested changes that I am committed to sharing 
with the Secretary and the Congress when they are available so 
that they can be used as evidence to inform future policy 
recommendations and decisions.

Q.6. Under the Trump budget request for 2019, how many 
additional families would receive housing assistance 
nationwide?

A.6. The proposed funding level for HUD's housing assistance 
programs would continue to support all currently supported 
households, the reissuance of Housing Choice Vouchers, and the 
leasing of units that become vacant in the Project Based Rental 
Assistance program. The proposal does include substantial cuts 
to the Public Housing program that may result in PHAs choosing 
to reposition their inventory, which might lead to public 
housing units not being reoccupied after tenants leave. For any 
existing public housing tenants that are required to move 
because of repositioning of the public housing inventory, they 
would receive another assisted housing unit or a housing 
voucher.

Q.7. My State is facing an affordable housing crisis, and with 
that has come a rise in evictions. Princeton just launched a 
new national website with data on evictions. In 2016, Nevada 
had 13,478 evictions. In November 2017, new management evicted 
35 families from a low-income apartment complex in Reno, 
Nevada, and those families were left on the street with nowhere 
to go. A constable in Laughlin, Nevada reported a rise in 
``strong-arm evictions''--pushing out tenants without using the 
correct, by-the-book processes designed to protect both the 
tenant and the landlord.
    If confirmed to this position, do you plan to lead and 
publish research on eviction and reforms that should be 
undertaken for eviction practices?

A.7. Yes. PDR has already been working with the author of 
Evicted, Professor Matthew Desmond, to improve the data HUD 
collects on evictions through its American Housing Survey and, 
if confirmed, I am committed to continuing this work and to 
publishing other research on the topic.

Q.8. What research does HUD have on best practices to help 
families avoid eviction?

A.8. Professor Desmond's work has greatly increased awareness 
of the issues surrounding eviction. PDR has not done a great 
deal of work on the issue to date, but it would be useful for 
PDR to closely examine the potential value of the eviction 
module in the 2015 American Housing Survey and the 
EvictionLab's national eviction database in connection with 
future research opportunities. PDR's evaluation of the 
Homelessness Prevention and Rapid Re-Housing program should be 
of value because of that program's focus on eviction/
foreclosure prevention and payment of arrearages. Additionally, 
HUD's report to Congress, ``Worst Case Housing Needs 2013'', 
included a short section on eviction and foreclosure problems. 
It found that, in 2013, eviction and foreclosure together 
accounted for 2.7 percent of moves for recent movers with 
severe problems, compared with 2.0 percent of moves among those 
without severe problems. Having severe housing problems 
significantly increases the probability of missing rent 
payments.

Q.9. What research does HUD have on improving eviction courts 
and protecting tenants rights?

A.9. Research in this area is challenging given the fact that 
eviction courts function differently from jurisdiction to 
jurisdiction. I believe HUD can play an important role in 
identifying best practices and disseminating those to 
communities across the country. In addition, I would like HUD 
to leverage its research partnerships to better explore and 
understand this critical issue. As PDR considers future 
research it would be beneficial to review what the EvictionLab 
has learned.

Q.10. Discrimination in housing is a serious problem. Families 
with children, people with disabilities, ethnic and racial 
minorities can face barriers to renting and buying homes.
    If confirmed, do you plan to conduct research into fair 
lending and redlining practices?

A.10. For three decades, PDR has launched major studies of 
discrimination using paired-testing methods, including research 
on discrimination targeting families with children, people with 
disabilities, and ethnic and racial minorities. If confirmed, I 
am committed to continuing this important work.

Q.11. If confirmed, what type of data on mortgage lending do 
your have access to beyond HMDA?

A.11. In addition to the restricted (agency) HMDA data, HUD has 
access to records on all loans insured through FHA, including 
standard 203B and other programs (e.g., HECM, 203K, etc.). The 
HUD-sponsored Rental Housing Finance Survey (RHFS) collects 
data on the sources of financing for rental properties. The 
American Housing Survey (AHS), which is sponsored by HUD, 
contains several questions on housing finance. HUD also has 
interagency agreements to access the new National Mortgage 
Database (NMDB), a 5 percent sample of all outstanding mortgage 
in the country. HUD also procures data from private vendors, 
such as mortgage servicing data, housing and delinquency data, 
and delinquency reports.
    Finally, there are a variety of public data on mortgage 
lending that PDR relies on. For example, FHFA provides several 
public-use databases on house prices and GSE acquisitions. 
Fannie Mae and Freddie Mac themselves provide public loan-level 
acquisition and performance data.

Q.12. While rapid growth and increases in jobs are good for 
communities, some get left behind. In my State, rents are 
rapidly rising, and wages are not rising to match.
    If confirmed, how will you update HUD's research into 
preserving affordable housing in hot market cities?

A.12. If confirmed, I will review the issue of hot markets with 
PDR's regional economists, as well as stakeholders, 
practitioners, academics, and advocates on the ground, and make 
effective use of the metro data newly available in the national 
American Housing Survey, as reported in ``Worst Case Housing 
Needs: 2017 Report to Congress''. Such market information can 
be considered along with lessons learned from the Rental 
Assistance Demonstration to make preservation more effective.

Q.13. What research does HUD have on investor-owned properties 
impact on the local housing market?

A.13. HUD has not done specific research on investor-owned 
single-family housing, but accounts for increased single-family 
rental inventory when evaluating housing markets in 
Comprehensive Housing Market Analysis Reports and market 
analyses for FHA multifamily insurance applications. One issue 
that could be studied is whether the prevalence of investor-
owned single-family housing contributes to the low levels of 
inventory available for resale because continued growth in 
rents coupled with low-cost financing locked in during the 
crisis makes renting single-family homes a profitable 
proposition. The difficulty of such research is the perennial 
issue of the owners of rental housing being hard to study. If 
confirmed, I will explore the feasibility of studying this 
issue with the PDR team.

Q.14. We must prohibit discrimination against Lesbian, Gay, 
Bisexual, and Transgender people in housing, including at 
homeless shelters. According to the 2015 U.S. Transgender 
Survey, 30 percent of transgender Americans have experienced 
homelessness at some point in their lives and 12 percent say 
they experienced homelessness in the past year because of being 
transgender. An estimated 40 percent of homeless youth are 
LGBTQ. Housing providers need the HUD guidance to ensure they 
follow the law and treat people traumatized by homelessness 
with compassion and respect.
    Will you urge the Secretary restore the Gender Identity 
Guidance as originally posted without delay? If not, why not?

A.14. Nondiscrimination is important to me and I am committed 
to ensuring that every person participating in HUD's programs 
can access them without being arbitrarily excluded and can feel 
safe during their time in the programs. Report language 
included as part of the recently enacted Appropriations Act 
directs HUD to expedite its review of these resources and, as 
appropriate, reissue and make publicly available all policies, 
surveys, and guidance within 180 days of enactment of the act. 
I think it is important for the Department to meet this 
deadline.

Q.15. What is the status of the rent reporting pilot program 
that aims to help HUD-assisted tenants build credit scores?

A.15. As part of broader conversation on how rent reporting 
would impact HUD assisted tenants, PDR entered into a research 
partnership agreement with a private research organization 
(PERC) to conduct research using historical rent payment data 
of PHAs to ascertain the impact on credit scores, if any, of 
reporting tenant payment to Credit Reporting Agencies. The 
study is nearing completion and results are expected soon. If 
confirmed, I am committed to utilizing the results of this 
study to inform future policy discussions on rent reporting for 
HUD-assisted tenants.

Q.16. Are there any changes proposed to the reverse mortgage 
program? If so, please describe them.

A.16. I am not aware of any current initiatives to change the 
HECM program. However, there has been considerable volatility 
in the program in the past, which, from my understanding, has 
spurred previous changes to it. If confirmed, I am committed to 
bringing all available data and research to any policy 
discussions involving it.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR JONES
                       FROM SETH APPLETON

Q.1. An area of concern that I raised with Secretary Carson is 
the issue of having adequate sewage for residents of rural 
Alabama, especially in the Black Belt. Many of these residents 
that reside in public housing units. In the 21st century, I 
believe every citizen of our Nation should have access to 
adequate sewage at their homes, but unfortunately this is still 
an issue we are working with in parts of my State, and I 
believe the Federal Government has a role to play.
    Can you work with me and my State to potentially get some 
research into rural sewage issues and its relationship to 
adequate housing?

A.1. Yes. This is an important issue and, if confirmed, I am 
committed to working with you and your staff to address it.
              Additional Material Supplied for the Record
   DOCUMENTS SUBMITTED IN SUPPORT OF THE NOMINATION OF SETH APPLETON
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
